<html>
<title> - THE FISCAL YEAR 2012 EPA BUDGET</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]






                    THE FISCAL YEAR 2012 EPA BUDGET

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON ENERGY AND POWER

                                AND THE

              SUBCOMMITTEE ON ENVIRONMENT AND THE ECONOMY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 11, 2011

                               __________

                           Serial No. 112-19


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>





      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov
                                _____

                  U.S. GOVERNMENT PRINTING OFFICE
72-431 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman

JOE BARTON, Texas                    HENRY A. WAXMAN, California
  Chairman Emeritus                    Ranking Member
CLIFF STEARNS, Florida               JOHN D. DINGELL, Michigan
ED WHITFIELD, Kentucky                 Chairman Emeritus
JOHN SHIMKUS, Illinois               EDWARD J. MARKEY, Massachusetts
JOSEPH R. PITTS, Pennsylvania        EDOLPHUS TOWNS, New York
MARY BONO MACK, California           FRANK PALLONE, Jr., New Jersey
GREG WALDEN, Oregon                  BOBBY L. RUSH, Illinois
LEE TERRY, Nebraska                  ANNA G. ESHOO, California
MIKE ROGERS, Michigan                ELIOT L. ENGEL, New York
SUE WILKINS MYRICK, North Carolina   GENE GREEN, Texas
  Vice Chairman                      DIANA DeGETTE, Colorado
JOHN SULLIVAN, Oklahoma              LOIS CAPPS, California
TIM MURPHY, Pennsylvania             MICHAEL F. DOYLE, Pennsylvania
MICHAEL C. BURGESS, Texas            JANICE D. SCHAKOWSKY, Illinois
MARSHA BLACKBURN, Tennessee          CHARLES A. GONZALEZ, Texas
BRIAN P. BILBRAY, California         JAY INSLEE, Washington
CHARLES F. BASS, New Hampshire       TAMMY BALDWIN, Wisconsin
PHIL GINGREY, Georgia                MIKE ROSS, Arkansas
STEVE SCALISE, Louisiana             ANTHONY D. WEINER, New York
ROBERT E. LATTA, Ohio                JIM MATHESON, Utah
CATHY McMORRIS RODGERS, Washington   G.K. BUTTERFIELD, North Carolina
GREGG HARPER, Mississippi            JOHN BARROW, Georgia
LEONARD LANCE, New Jersey            DORIS O. MATSUI, California
BILL CASSIDY, Louisiana              DONNA M. CHRISTENSEN, Virgin 
BRETT GUTHRIE, Kentucky              Islands
PETE OLSON, Texas
DAVID B. McKINLEY, West Virginia
CORY GARDNER, Colorado
MIKE POMPEO, Kansas
ADAM KINZINGER, Illinois
H. MORGAN GRIFFITH, Virginia

                                  (ii)
                    Subcommittee on Energy and Power

                         ED WHITFIELD, Kentucky
                                 Chairman
JOHN SULLIVAN, Oklahoma              BOBBY L. RUSH, Illinois
  Vice Chairman                        Ranking Member
JOHN SHIMKUS, Illinois               JAY INSLEE, Washington
GREG WALDEN, Oregon                  JIM MATHESON, Utah
LEE TERRY, Nebraska                  JOHN D. DINGELL, Michigan
MICHAEL C. BURGESS, Texas            EDWARD J. MARKEY, Massachusetts
BRIAN P. BILBRAY, California         ELIOT L. ENGEL, New York
STEVE SCALISE, Louisiana             GENE GREEN, Texas
CATHY McMORRIS RODGERS, Washington   LOIS CAPPS, California
PETE OLSON, Texas                    MICHAEL F. DOYLE, Pennsylvania
DAVID B. McKINLEY, West Virginia     CHARLES A. GONZALEZ, Texas
CORY GARDNER, Colorado               HENRY A. WAXMAN, California (ex 
MIKE POMPEO, Kansas                      officio)
H. MORGAN GRIFFITH, Virginia
JOE BARTON, Texas
FRED UPTON, Michigan (ex officio)
                                 ------                                

              Subcommittee on Environment and the Economy

                         JOHN SHIMKUS, Illinois
                                 Chairman
TIM MURPHY, Pennsylvania             GENE GREEN, Texas
  Vice Chairman                        Ranking Member
ED WHITFIELD, Kentucky               TAMMY BALDWIN, Wisconsin
JOSEPH R. PITTS, Pennsylvania        G.K. BUTTERFIELD, North Carolina
MARY BONO MACK, California           JOHN BARROW, Georgia
JOHN SULLIVAN, Oklahoma              DORIS O. MATSUI, California
CHARLES F. BASS, New Hampshire       FRANK PALLONE, Jr., New Jersey
ROBERT E. LATTA, Ohio                DIANA DeGETTE, Colorado
CATHY McMORRIS RODGERS, Washington   LOIS CAPPS, California
GREGG HARPER, Mississippi            JOHN D. DINGELL, Michigan
BILL CASSIDY, Louisiana              HENRY A. WAXMAN, California (ex 
CORY GARDNER, Colorado                   officio)
JOE BARTON, Texas
FRED UPTON, Michigan (ex officio)













                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. John Shimkus, a Representative in Congress from the State of 
  Illinois, opening statement....................................     1
    Prepared statement...........................................     3
Hon. Gene Green, a Representative in Congress from the State of 
  Texas, opening statement.......................................     6
Hon. Henry A. Waxman, a Representative in Congress from the State 
  of California, opening statement...............................     8
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, prepared statement...................................    61
Hon. Lois Capps, a Representative in Congress from the State of 
  California, prepared statement.................................    63

                               Witnesses

Lisa P. Jackson, Administrator, Environmental Protection Agency..     9
    Prepared statement...........................................    12
    Additional comments..........................................    27
    Answers to submitted questions...............................    66

                           Submitted Material

Letter of March 10, 2011, from Operation Free to Mr. Markey......    37

 
                    THE FISCAL YEAR 2012 EPA BUDGET

                              ----------                              


                         FRIDAY, MARCH 11, 2011

                  House of Representatives,
                  Subcommittee on Energy and Power,
                                 Joint with
       Subcommittee on Environment and the Economy,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittees met, pursuant to call, at 10:04 a.m., in 
room 2123, Rayburn House Office Building, Hon. John Shimkus 
(chairman of the Subcommittee on Environment and the Economy) 
presiding.
    Members present: Representatives Barton, Whitfield, 
Shimkus, Pitts, Walden, Terry, Sullivan, Murphy, Burgess, 
Bilbray, Bass, Scalise, Latta, McMorris Rodgers, Harper, 
Cassidy, Olson, McKinley, Gardner, Pompeo, Griffith, Upton, 
Dingell, Markey, Pallone, Rush, Green, DeGette, Capps, Inslee, 
Baldwin, Barrow, Matsui, and Waxman.
    Staff present: Mike Bloomquist, Deputy General Counsel; 
Dave McCarthy, Chief Counsel, Environment/Economy; Maryam 
Brown, Chief Counsel, Energy and Power; Mary Neumayr, Counsel, 
Oversight/Energy; Jerry Couri, Senior Environmental Policy 
Advisor, Environment; Sean Bonyun, Deputy Communications 
Director; Mike Gruber, Senior Policy Advisor; Cory Hicks, 
Policy Coordinator, Energy and Power; Allison Busbee, 
Legislative Clerk; Phil Barnett, Minority Staff Director; 
Jackie Cohen, Minority Counsel; Teitz, Minority Senior Counsel, 
Environment and Energy; Kristin Amerling, Minority Chief 
Counsel and Oversight Staff Director; Alison Cassady, Minority 
Senior Professional Staff Member; Karen Lightfoot, Minority 
Communications Director and Senior Policy Advisor; Caitlin 
Haberman, Minority Policy Analyst.
    Mr. Shimkus. The subcommittee will now come to order. I 
want to thank everyone for attending and showing up promptly. 
We had a few hiccups with some technology stuff. We got fried 
about 15 minutes ago, so that is what we have been working on 
to correct.

  OPENING STATEMENT OF HON. JOHN SHIMKUS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    I want to welcome Administrator Jackson and thank her for 
making herself available to testify today on the EPA's fiscal 
year 2012 budget proposal.
    Getting control of the debt crisis our government faces 
starts with making funding authorizations not just relevant, 
but integral to the budget process. As an authorizing 
committee, it is necessary that we analyze and question the 
details of where our tax dollars go in those agencies under our 
jurisdiction. Only then can we make appropriate decisions on 
where changes need to be made. Through the leadership of 
Chairman Upton, this committee will do its part to rein in 
wasteful and redundant Federal spending. We will not only 
identify what programs should be eliminated, but we will also 
carefully question whether some programs considered to be 
worthwhile can and should live with less.
    The reality is, we are out of money to spend. The American 
public understands this, and they are tasking us with the job 
of trimming the fat. While the proposed budget does represent a 
decrease from last year, it still spends 2 billion more than 
just a few years back under the previous administration. We can 
and must do better. By working together to focus EPA's budget 
on its core competency, I believe we can and will do better. 
This will mean making tough decisions in some cases. These 
decisions are made easier when we put them in perspective of 
what our deficit and debt mean to the economy.
    There is no better way to promote American's resurgence 
than providing a common-sense regulatory climate that fosters 
certainty and eliminates unnecessary and burdensome 
regulations.
    Many regulations can have devastating impacts on industries 
wasting millions in public and private dollars in the process. 
One example is the greenhouse gas rules rejected by the last 
Congress, in no small part because of uncertainty they create. 
This uncertainty ultimately stifles job creation and energy 
expansion. Yet the administration has moved forward on this 
rule seeking nearly $100 million in fiscal year 2012 do so.
    As we found in last month's hearing on Regulations, Jobs 
and the Economy, it doesn't have to be one broad regulation to 
wreak havoc on the economy. Small business owners regularly 
find themselves subject to increasing numbers of overly 
burdensome regulations. Without the expertise or staff to 
navigate through the mandates, costs for entrepreneurs 
skyrocket, leaving little capital left for expansion and new 
hires. Less money to spend demands we make every effort to get 
back to basics.
    We need to understand every new program that EPA proposes. 
We need to see if that program will replace or repackage old 
policy. We need to justify programs based on the severity of 
the national needs. And we need to identify and understand the 
progress programs have made based upon measurable criteria, and 
whether EPA can justify their continuation.
    This will be no easy task. But I look forward to open, 
sincere dialogue with the Agency. It is my intention to work 
together to give the EPA the tools it needs to carry out its 
job in a manner that benefits the environment, the economy, and 
the American taxpayer without unnecessary burdens and wasteful 
spending.
    [The prepared statement of Mr. Shimkus follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Shimkus. And with that I would like to yield 1 minute 
to my colleague from Kentucky, Mr. Whitfield.
    Mr. Whitfield. Thank you very much, Chairman Shimkus. And 
Administrator Jackson, we appreciate your being here with us 
today and giving us the opportunity to visit with you about the 
EPA budget, and certainly want to have some discussion also 
about the President's January 2011 executive order about 
promoting economic growth, innovation, competitiveness and job 
creation and the impact that regulations have on that. And so 
we look forward to your testimony today and we appreciate your 
being here.
    Mr. Shimkus. And now I would like to recognize Mr. Murphy 
for the remainder of my time, which should be about a minute.
    Mr. Murphy. Thank you, Mr. Chairman. It is certainly a 
question we have to deal with today is how do we pay for all 
these things, to clean up our water which we want, and to clean 
up our brownfields which we want, and to clean our air. But I 
am hoping we come up with more creative solutions than the past 
issue of carbon credits, which I liken to ``Seinfeld'' credits. 
The famous ``Seinfeld'' show, a show about nothing, is likened 
to this because when you are trading a carbon credit, you are 
basically asking a company that produces something in a smoke 
stack to trade it in a commodity for a smokestack, maybe no 
smokestack that produces nothing. But these paper carbon 
credits will be traded in the market in such way it will 
increase the cost of electricity, increase the cost of 
manufacturing, send more jobs overseas, and have no net impact 
upon air pollution, which floats back over here.
    I dearly hope that we come up with solutions and means to 
pay for those, because we all on both sides of the aisle want a 
cleaner environment, but also want jobs to function for these 
things. I am hoping that is a key part of today's discussion 
and look forward to these hearings. Thank you, Mr. Chairman.
    Mr. Shimkus. The gentleman's time has expired. Now the 
chair recognizes the ranking member of the subcommittee, Mr. 
Green, for 5 minutes.

   OPENING STATEMENT OF HON. GENE GREEN, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Green. Thank you, Mr. Chairman, and thank you go for 
holding the hearing today on the fiscal year 2012 EPA budget. I 
want to thank Administrator Jackson for appearing before the 
committee again. And I know you have been before our committee 
several times the past few weeks. And as an aside, I was 
wondering if you had the right it assign your parking place 
when you are not using it to any other member. But I appreciate 
your making time to discuss the EPA budget with us today.
    As a member represents an energy producing district, I 
understand the balance must be struck between clean and safe 
energy production in our environment. The EPA serves the 
important function of monitoring our environmental health and 
safety. The public health protection is a provider and very 
important to our local communities.
    Today we are discussing the budget. Last week I was at a 
hearing for the Health and Human Services budget, and across 
the board, we are making reductions in spending to get the 
budget under control. EPA's budget is no exception, and 
reductions in funding have been reflected in the President's 
budget.
    I have several concerns about what--I have with that budget 
proposal mostly in the area of Superfund accounts. Congressman 
Ted Poe and I have a Superfund site that we share in our 
districts which is leaking dioxin. The EPA is pursuing the 
responsible parties but cuts within the budget make it 
difficult for EPA to pursue responsible parties and to clean up 
the Superfund sites already on the national priorities list. 
This is extremely disconcerting because I know from this 
experience we had with our Superfund site how hard it is for 
EPA to list the sites, to add them to the NPL and actually 
begin cleaning them up, because the Superfund program already 
lacks funds.
    I am pleased the budget adds in funds for the E-waste 
recycling programs. I have been working on electronic waste 
recycling legislation for several years, and I strongly believe 
the United States needs not only a national, but a global 
responsibility to set up national E-waste recycling standards. 
Again, thank you, Madam Administrator, for appearing before the 
committee today and look forward to hearing your testimony. 
Thank you, Mr. Chairman.
    Mr. Shimkus. The gentleman yields back his time. The chair 
recognizes that all members will have unanimous consent 
requests for their opening statements to be placed into the 
record. The chair now recognizes the chairman emeritus, 
Chairman Barton, for 5 minutes.
    Mr. Barton. For 5 minutes?
    Mr. Shimkus. If you want it.
    Mr. Barton. Well, I am going to yield back some of that 
time, Mr. Chairman.
    Mr. Shimkus. Good.
    Mr. Barton. I am used to 1 minute or 2 minutes. We want to 
welcome Administrator Jackson again, we are going have a good 
dialogue with her. I want the record to show that myself, and I 
think every Republican on this subcommittee, joint 
subcommittee, support a strong EPA and we support strong 
enforcement of our environmental laws. What we don't support is 
an EPA that goes beyond its core mission for what I consider to 
be political purposes. Or pursues strategies that cost 
extremely much more than they do resulting in benefits. One of 
the ways the Congress has the authority to review any Agency is 
to review its budget authority and that is the purpose of this 
hearing.
    Even with the reduction from last year's spending level the 
EPA's requesting over $9 billion. That is a lot of money, and I 
am looking forward to asking some very serious questions about 
where that money's being spent, and how it is being spent, and 
what the results of that spending is. So with that, Mr. 
Chairman, I put my formal statement in the record and I yield 
back or yield to whoever you wish to yield it to.
    Mr. Shimkus. The gentleman yields back his time. The chair 
now recognizes the chairman emeritus, Mr. Waxman, for 5 
minutes.

OPENING STATEMENT OF HON. HENRY A. WAXMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Waxman. Thank you very much, Mr. Chairman. Today we 
will compare two visions of EPA's budget and the difference 
between them could not be more stark. The President's budget is 
fiscally responsible, yet gives the Agency the resources it 
needs to protect public health in the environment. The 
Republican budget would decimate the Agency and its public 
health mission.
    A common perception is that energy and environmental issues 
are more regional than partisan. Most of my career, that has 
been true. But that is no longer true today. The Republican 
Party in Congress has become the anti-environment party. There 
is no more telling proof that H.R. 1, the Republican budget 
proposal.
    During the debates we have had in this committee on clean 
air in 1990 when we did our revisions, we had Republicans who 
were clearly pro-environment. President George H.W. Bush, 
representatives like Sherry Boehlert, John Chafee, were close 
allies and true environmental champions. And ultimately, after 
difficult compromises, our regional, bipartisan coalitions were 
able to rally around the bill that passed the House 401 to 25; 
in the Senate, 89 to 10.
    But this kind of bipartisanship seems impossible today. 
Republicans in this Congress have an anti-environment agenda, 
and as of yesterday's markup of the Upton-Inhofe bill 
demonstrates, they also have an anti-science agenda.
    It is a Republican mantra that they are pursuing the ``will 
of the people.'' But that is not what they are doing. Their 
anti-science, anti-environment agenda may be the will of the 
Koch Industries but it is not what American families want.
    Americans know that their family's health and quality of 
life depend on a clean environment. They know we need a strong 
EPA to stop oil companies and power companies from poisoning 
our air and water. They know we need a strong EPA to keep toxic 
chemicals out of our food supply and away from our children. 
But instead of giving EPA the resources the Agency needs, 
Republicans are using the budget process to handcuff the 
Agency. The Republican budget is the most sweeping and reckless 
assault on health and the environment we have seen in decades. 
This bill slashes EPA's funding by almost a third, denying the 
Agency the resources it needs to carry out the Clean Air Act, 
the Clean Water Act, the Safe Drinking Water Act, the Food 
Quality Protection Act, and the Toxic Substances Control Act.
    Riders in H.R. 1 block EPA from regulating toxic emissions 
from cement plants, they defund EPA's efforts to reduce 
dangerous carbon emissions, they sought to prevent EPA from 
protecting water quality in thousands of streams and wetlands, 
threatening drinking water supplies for millions of Americans.
    I am glad we have Administrator Jackson here today. I look 
forward to her testimony. She will explain what the 
implications of the Republican budget would be on her Agency. I 
know it is awkward because we are going to hear from her, after 
we have already voted on the House floor for some of these 
very, very damaging cuts and unthought-through riders. But I 
hope members will listen.
    In the weeks ahead, we have time to change course and work 
together to give EPA the resources it needs to protect public 
health and the environment. I yield back the balance--well, let 
me--are you going to----
    Mr. Shimkus. I wasn't and was hoping.
    Mr. Waxman. Well, I would like to yield back the balance of 
my time to Mr. Rush.
    Mr. Rush. I want to thank the ranking member for yielding 
the balance of his time. And I want to thank the chairman of 
the committee for holding this hearing. I certainly want to 
thank the Administrator for being here. Madam Administrator, I 
want to thank you for all your hard work and dedication on 
behalf of the American people to provide all of us with clean 
air, and water, and for protecting the public health in spite 
of all the ridicule and contempt that you have encountered as 
you attempt to do the job that President Obama tasked you to 
do. You are a woman of immense talents, courage and commitment, 
and I want to congratulate you on your resolve and commend you 
on your resolve.
    The President's budget already proposes a 13 percent 
decrease to EPA's fiscal year 2012 budget. And my colleagues on 
the other side of the aisle are attempting to compound your 
challenges by composing Draconian cuts of almost a third of 
your budget as compared to fiscal year 2010 levels. And I for 
one, Madam Administrator, can tell you that my constituents are 
very confused and perplexed that the same Republicans who will 
cut $3 billion from the Agency charged with protecting the 
public health are also the same politicians who will humanly 
resist taking away the $3.6 billion in tax credits from oil 
companies who are making record profits, even as the average 
American struggles to pay for $4 a gallon for gas in most 
stations in this Nation.
    Some programs that are dear and near to me will see 
significant funding cuts, including $550 million reduction to 
the Drinking Water State Revolving and Loan Fund.
    I ask unanimous consent for 30 seconds.
    Mr. Shimkus. The gentleman is recognized for an additional 
30 seconds without objection.
    Mr. Rush. Madam Administrator, I realize that with such 
deep funding cuts you are forced to make some tough choices and 
you prioritize your agenda and work to protect America's air 
and water supply. I want to you know that you have my support, 
my support and we intend to work very, very closely with you to 
work our way through this issue and these problems that we are 
confronted with as a Nation. Thank you so very much, and God 
bless you. I yield back.
    Mr. Shimkus. The gentleman yields back his time. Now the 
chair welcomes the Honorable Lisa Jackson, Administrator of the 
U.S. Environmental Protection Agency. Ma'am, your entire record 
and testimony has been recorded and is on file. You have 5 
minutes for an overview, and welcome again.

  STATEMENT OF LISA P. JACKSON, ADMINISTRATOR, ENVIRONMENTAL 
                       PROTECTION AGENCY

    Ms. Jackson. Thank you, thank you so much. Thank you, 
Chairman Shimkus, Chairman Whitfield, Ranking Members Rush and 
Green. Members of the subcommittee, thank you for inviting me 
go to testify about President Obama's budget request for the 
Environmental Protection Agency. I just want to start to say 
that our thoughts and prayers are with the people of Japan this 
morning. And EPA, along with much of the Federal Government, 
stands ready to assist them and our people as we see the 
ramifications of what is going on there.
    Congress enacted the Clean Air Act, the Clean Water Act and 
America's other bedrock environmental protection laws on a 
broadly bipartisan basis. It did so to protect American's 
children and adults from pollution that otherwise would make 
their lives shorter, less healthy and less prosperous. It did 
so to make the air and drinking water in America's communities 
clean enough to attract new employers. It did so to enable 
America's local governments to revitalize abandoned and 
polluted industrial sites. It did so to safeguard the pastime 
of American's 40 million anglers, it did so to protect the 
farms whose irrigation makes up a third of America's surface 
freshwater withdrawals. And it did so to preserve the 
livelihood of fishermen in America's great waters such as the 
Great Lakes, the Chesapeake Bay, and the Gulf of Mexico.
    Congress gave EPA the responsibility of implementing and 
enforcing those laws. Each year, Congress appropriates the 
money that makes EPA's implementation and enforcement work 
possible. As head of the EPA, I am accountable for squeezing 
every last drop of public health protection out of every dollar 
we are given. So I support the tough cuts in the President's 
proposed budget. But I am equally accountable for pointing out 
when cuts becomes detrimental to public health. Without 
adequate funding, EPA would be unable to implement or enforce 
the laws that protect Americans' health, livelihoods and 
pastimes. Big polluters would flout legal restrictions on 
dumping contaminants into the air and to rivers and onto the 
ground. Toxic plumes already underground would reach drinking 
water supplies, because ongoing work to contain them would 
stop. There would be no EPA grant money to fix or replace 
broken water treatment systems and the standards EPA has said 
to establish from harmful air pollution form smokestacks and 
tailpipes would remain missing from a population of sources 
that is not static, but growing.
    So if Congress slashes EPA funding, concentrations of 
harmful pollution would increase, from current levels in the 
places Americans live, work, go to school, fish, hike and hunt. 
The result would be more asthma attacks, more missed schooldays 
and workdays, more heart attacks, more cancer cases, more 
premature deaths, and more polluted waters.
    Needless to say then, I fervently request and appreciate 
bipartisan support in Congress for funding the essential work 
that keeps American children and adults safe from uncontrolled 
amounts of harmful pollution being dumped into the water they 
drink and the air they breathe.
    Decreasing Federal spending is no longer just a prudent 
choice, it is now an unavoidable necessity. Accordingly, 
President Obama has proposed to cut EPA's annual budget nearly 
13 percent. That cut goes beyond eliminating redundancies. We 
have made difficult, even painful choices. We have done so, 
however, in a careful way that preserves, EPA's ability to 
carry out its core responsibility to protect the health and 
well-being of America's children, adults and communities.
    We have been reviewing the budget request for more than 3 
weeks, I will save the details for the question and answer 
period. Before turning to your questions, I will address 
Chairman Upton's bill to eliminate portions of the Clean Air 
Act. The most extreme parts of that bill remain unchanged since 
I testified about it a month ago. It still would presume to 
overrule the scientific community on the scientific finding 
that carbon pollution endangers American's health and well-
being. Politicians overruling scientists on a scientific 
question. You might well be remembered more for that than for 
anything else you do. The bill still would block any Clean Air 
Act standards for greenhouse gas pollution from cars and trucks 
after 2016.
    Alone, the Department of Transportation CAFE standards do 
not achieve nearly as much pollution reduction or oil savings 
as when they are backed up by the Clean Air Act's enforcement 
provisions. All told, nullifying this part of the Clean Air Act 
would forfeit many hundreds of millions of barrels of oil 
savings, at a time when gas prices are rising yet again. I 
cannot, for the life of me, understand why you would vote to 
massively increase America's oil dependence.
    The Clean Air Act saves millions of American children and 
adults from the debilitating and expensive illnesses that occur 
when smokestacks and tailpipes dump unrestricted amounts of 
harmful pollution into the air we breathe. I respectfully ask 
this committee to think twice before gutting that landmark law. 
Thank you, Chairman. I look forward to your questions.
    [The prepared statement of Ms. Jackson follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Shimkus. Thank you, Madam Administrator. And now I will 
recognize myself for 5 minutes for the first round of 
questions. As I do so, I will remind my colleagues that the 
Republican budget hasn't been proposed yet, that is what we are 
doing next month. We are trying to address the Continuing 
Resolution based upon the fact that the Democrats in the 
majority in the last Congress didn't pass a budget. Had they 
done that, we wouldn't be in this CR fight, but that did not 
happen.
    And Madam Administrator, you know that when we do propose 
our budget, you should expect to see--constitutionally, all 
appropriations begin in the House. You should expect to see 
2008 budget numbers come for the Environmental Protection 
Agency. The point being--and the public understands--that in 
2008 we still spent a whole heck of a lot of money. So ``2008 
spending levels'' does not mean we are not spending any money. 
In fact, it means we are spending billions of dollars. And I 
would just give you a heads up that your Agency should be 
prepared for those numbers once we finish our budget process.
    Having said that, I would like to put on a slide two 
statements; one from your Agency, and one from the President of 
the United States. In 2010, June 2010 when you proposed your 
coal ash rule, it stated ``The regulatory impact assessment for 
this proposal rule does not include either qualitative or 
quantitative estimation of the potential effects of the 
proposed rule on economic productivity, economic growth, 
employment, job creation or international competitiveness.''
    Now the President issued an executive order in January 
2011. And in that executive order he states--and that is the 
second, it is one highlighted in red--that ``regulatory reform 
must take into account benefits and costs, both quantitative 
and qualitative, in the interest of economic growth, 
innovation, competitiveness and job creation.''
    So the question, since the executive order says exactly the 
opposite of what you had previously stated during the 
rulemaking process, will you now go back and rescind the coal 
ash rule?
    Ms. Jackson. The coal ash rule is not final, Mr. Chairman. 
It has been proposed. It has been subject to over 400,000 
comments.
    Mr. Shimkus. Reclaiming my time. Let me ask then, will you, 
since it has not been finalized, will you comply with the 
President's executive order and take into consideration both 
qualitative and quantitative estimation of the potential 
effects of the proposed rule?
    Ms. Jackson. Yes, of course we will. And let me simply say 
the proposed rule does have cost estimates in it. The piece 
that you exempted from the RIA points out estimates that 
weren't done, but there were several cost estimates done in 
conjunction.
    Mr. Shimkus. So you are agreeing now to make sure that the 
RIA will comply with the President's executive order.
    Ms. Jackson. Any final rule, when it is finalized, and we 
have not announced the date for that rule, has to comply with 
the President's executive orders.
    Mr. Shimkus. Can you outline any other regulations you will 
specifically reconsider, based upon the President's executive 
order?
    Ms. Jackson. Well, the President's executive order has 
several parts, one is a retrospective look at regulations, 
which the Agency is--has already begun in compliance with that 
order. So we will, in effect, be looking back at all of our 
regulations, that is what the executive order asked us to do. 
In addition, it puts requirements on us prospectively as 
regulations are evaluated.
    Mr. Shimkus. Do you have a master plan for your look-back? 
And would you provide a copy for the committee for that?
    Ms. Jackson. We do not yet have it, sir, but we are working 
on it. I believe it is due to the White House in about a month, 
and of course, we will provide it.
    Mr. Shimkus. Do you have any EPA regulations that you feel 
would be exempt from the Presidential executive order?
    Ms. Jackson. Not to my knowledge, sir. I don't believe we 
have identified any exemptions.
    Mr. Shimkus. And what portion of the 2012 Presidential 
budget is being used to carry out the President's executive 
order?
    Ms. Jackson. I don't have a figure specifically for that 
work. It will be done in the base budget for EPA and it will 
span several of the offices.
    Mr. Shimkus. Can you provide that for the committee?
    Ms. Jackson. We can certainly give an estimate of what we 
entail the workload to be, sir.
    Mr. Shimkus. That would be helpful. Thank you.
    My time is nearly expired, so I will now yield to my 
colleague from Texas, Mr. Green.
    Mr. Green. Thank you, Mr. Chairman. We, as you know, we 
have a short time, so I will get into the questions, as you 
know, I personally have been very interested in the issue of 
electronic waste, and have been working on the issue. I noticed 
there are some individuals who believe the EPA should spend 
money to build capacity for managing E-waste in developing 
nations. While I agree that the countries do need to develop 
their capacity to manage their own E-waste, I think if we do 
not address the E-waste problem, domestically then it will be 
just an excuse to continue exporting to developing countries.
    That is why I am a little concerned with EPA's budget 
justification focused on EPA partnering with other nations and 
international organizations, such as the UNEP to begin tracking 
the international movement of electronic waste and provide E-
waste best practices through education and demonstration 
project in developing countries.
    I think it is a little disingenuous for the United States 
to talk to capacity building in these countries if we haven't 
addressed the problem from our own E-waste exports. Plus, given 
that we are in a world with diminishing EPA funding, we simply 
shouldn't be spending money on this internationally. Instead, 
the EPA should be spending time and money to increase 
responsible recycling here in the United States, increasing 
capacity and quality and legal compliance here at home.
    Several weeks ago at a hearing on environmental regulations 
and jobs, Wendy Neu of the Neu Corporation, an E-waste 
recycler, testified that the EPA regulations have added value 
to her business.
    If the EPA focused all the budget amount currently 
designated for international capacity building, education 
demonstration projects, et cetera, on improving our domestic 
capacity for quality of E-waste recycling, wouldn't we then 
actually be adding value to the business of our United States 
recyclers, allowing them to expand their own operations and add 
more jobs for you as workers so any investment by the Federal 
Government in EPA's budget on the front end would be more than 
paid for by the business expansion and job creation on the back 
end.
    I am concerned that the focus on best practices overseas 
sets a precedent of ignoring or problem and absolves us of our 
responsibility to set up our own national E-waste program. That 
is a question that I would like--- do you think that by 
focusing on international cooperation and education, that we 
are actually short-sighted in dealing with our own problems 
domestically?
    Ms. Jackson. Well, they are not exclusive, sir. We are 
doing work domestically with several other manufacturers and 
several of the States have put in place their own regulations 
for E-waste recycling. But the truth of the matter is that one 
of the things we will have do if we want to create a market 
here is stop the illegal export of these wastes. And the only 
way to do that is in the receiving country, because they have 
to come to understand how bad this is for them from the 
standpoint of public health.
    Mr. Green. Well, with our scarce dollars, my concern is we 
might not be doing what we need to do here and maybe helping 
developing countries.
    Let me go on. The second question is on E-manifest. In your 
budget proposal, you also request 2 million for the development 
of electronic hazardous waste manifest systems or E-manifest. 
It is my understanding that the current paper hazardous waste 
manifest system creates a very large administrative paperwork, 
and as well as financial burden on firms regulated under RCRA, 
hazardous waste provisions. Can you discuss the burden of the 
current hazardous waste manifest system creates for businesses 
as well as for the EPA?
    Ms. Jackson. Well, certainly the $2 million investment is 
intended to help to relieve some of that burden, we are 
obviously in the electronic age. The idea is of the electronic 
manifest will help reduce paperwork. It does require some 
amount of training, but the purpose of the manifest system, of 
course, is a cradle-to-grave understanding of where waste flows 
are domestically in our country. So we believe it is an 
investment in modernizing the system that will pay off in 
efficiency later.
    Mr. Green. One of the concerns I have, it seems like under 
our current system when we have it there should be potential 
savings not only the EPA and to businesses, there is excessive 
postal costs because you have to ship each paper on hazardous 
waste manifest. The budget proposal also discusses a 
legislative proposal EPA will submit to Congress on the 
collection of user fees to support the development of operation 
of the E-manifest system.
    For several years, legislation has been introduced in both 
House and Senate to create an e-manifest system funded by user 
fees. Legislation has not been introduced this year and I would 
be interested in seeing EPA's proposal. Do you anticipate 
sending it to Congress?
    Ms. Jackson. We are happy to send technical information and 
support for such a proposal, sir.
    Mr. Green. The EPA is expected in 2012 to finalize a rule 
to allow for the electronic tracking of hazardous waste using 
the E-manifest. Will these rules be issued before or after the 
legislative proposal is sent to Congress?
    Ms. Jackson. I don't know the answer to that question off 
the top of my head, Mr. Green. Let me find out, because we are 
talking about--I think the intent of the budget was to show 
that we have a full proposal, the $2 million investment would 
eventually rely on rules that implement the E-manifest system. 
But we will get a schedule for you.
    Mr. Green. Appreciate the information. Thank you, Mr. 
Chairman.
    Mr. Shimkus. The gentleman's time has expired. The chair 
now recognize the subcommittee chairman for Energy and Power, 
Mr. Whitfield, for 5 minutes.
    Mr. Whitfield. Thank you, Chairman Shimkus. I want to 
further explore a question that Mr. Shimkus had. In addition to 
the fly ash rule in June of 2010, in December of 2010, you 
issued guidelines for preparing economic analysis. And in that 
guideline, it said regulatory-induced employment impacts are 
not generally relevant for cost benefit analysis. And I think 
that guideline would also be in direct conflict with the 
President's executive order. I would ask you are you revising 
the guidelines at all?
    Ms. Jackson. I believe the guidelines called for a separate 
jobs analysis or envisioned a separate jobs analysis. So I 
think what the intent was not to double count jobs analysis in 
the cost benefit. But I would happy to take a look at that 
issue.
    Mr. Whitfield. But in your guidelines now, you do insist 
that you look at the impact on jobs of any regulations?
    Ms. Jackson. We are doing jobs analysis for our 
regulations, yes, sir.
    Mr. Whitfield. And the second question I would like to ask 
you is, do you know how many lawsuits are pending against the 
EPA today?
    Ms. Jackson. How many lawsuits? I do not have the number, 
sir.
    Mr. Whitfield. Would you be able to get that to us?
    Ms. Jackson. Certainly.
    Mr. Whitfield. Because I notice that the legal advice parts 
of your budget exceeds $61 million, which is quite a bit of 
money.
    Ms. Jackson. Well, we are sued quite often, sir, by many 
sides.
    Mr. Whitfield. Also, how much money does the EPA contribute 
to the International Panel on Climate Change?
    Ms. Jackson. Do we--I don't know that we--sir, I will have 
to get that number for you for the record. I am not sure that 
we do contribute but it if we do, I will get that number to 
you.
    Mr. Whitfield. Maybe we don't contribute any money to it 
through EPA?
    Ms. Jackson. We do not know, so rather than give you 
inaccurate information, may I please just get it?
    Mr. Whitfield. OK. Now I notice that in the budget there is 
also about 1.2 billion set aside for categorical grants. And I 
notice that categorical grants can also be given to non-profit 
groups. Would you be able to give me three or four names of 
some non profit groups that have received these categorical 
grants?
    Ms. Jackson. Well, I know just because I saw a letter 
recently from, I believe it is Chairman Upton, that there is a 
request for the entire list. I happened to see another piece of 
correspondence from the State of California, many of their 
local and regional air boards receive those grants.
    So I think you will see a mixture of State and public 
entities, as well as possibly some NGOs, but we are working on 
a response to that letter.
    Mr. Whitfield. So you will be providing a total list of 
those and the amounts?
    Ms. Jackson. That is what the letter requests, sir. And it 
is a fairly substantial piece of work, but that is what we are 
in the process of doing.
    Mr. Whitfield. I notice there is also $195 million in civil 
and criminal enforcements. Are we primarily talking about court 
action to enforce compliance with EPA rules. Is that what that 
195 million basically would go for?
    Ms. Jackson. Many of our actions are administrative, sir, 
so they never reach the courts. They are administrative 
actions, penalty actions and other. Civil enforcement can be, 
obviously, under civil codes, can result in indictments and 
fines, penalties or even jail time.
    Mr. Whitfield. My time is about to conclude here. I want to 
just go back once more, because this job impact issue is so 
important in my view. I just want to make sure in the 
guidelines, you are saying that in some instances you do look 
at job impacts; is that correct?
    Ms. Jackson. We have been looking at jobs impact analysis 
as part of our regulatory analyses. And if you look at any of 
the rulemaking records for recent rules, certainly ones I have 
been involved with, there are jobs analysis that there are 
economically significant rules.
    Mr. Whitfield. Could you say on just about every regulation 
that is going to be issued at EPA now, job analysis impacts 
will be looked at?
    Ms. Jackson. I think we need to look at economically 
significant regulations, EPA has several regulations that 
doesn't rise to that----
    Mr. Whitfield. Economically significant, that would that be 
100 million or more?
    Ms. Jackson. That is one of the tiers that we look at, yes. 
So 100 million or more, yes. Why don't I give you the criteria 
by which we do the jobs analysis. I am happy to do that. I 
agree with you that we need to do as good a job we can looking 
at the job impacts of major rules.
    Mr. Whitfield. Thank you.
    Mr. Shimkus. The gentleman yields back his time.
    The chair recognizes the chairman emeritus, Mr. Waxman, for 
5 minutes.
    Mr. Waxman. Thank you, Mr. Chairman.
    Administrator Jackson, I am glad that you are here today, 
it gives you the opportunity to set the record straight on 
several matters. Yesterday the Subcommittee on Energy and Power 
marked up the Upton-Inhofe bill to eliminate EPA's authority to 
address carbon pollution and climate change.
    During the markup, Chairman Upton said that EPA's 
greenhouse gas regulations would increase gasoline prices. His 
reasoning was based on a quote you gave in 2009 when you said, 
``Congressional action on energy and climate legislation would 
be more effective and less costly than EPA Regulations.'' We 
are likely to hear that same claim next week when the full 
committee meets to consider the bill.
    Administrator Jackson, can you tell us whether Chairman 
Upton is accurate in his description of your views?
    Ms. Jackson. No, sir, he is not.
    Mr. Waxman. And how is he inaccurate?
    Ms. Jackson. Well, it is actually the opposite of the 
truth. The bill that passed the committee would actually 
increase the amount of money that Americans have to pay for 
gasoline, diesel. It would increase our oil dependence by 
hundreds of million of barrels. It would do so by blocking 
EPA's common-sense steps under the Clean Air Act on vehicle 
standards, because that bill although it recognizes the past 
standards, undoes the endangerment finding on which those 
standards are based, and then takes EPA out of the process for 
years 2016 and beyond.
    So all those hundreds of millions of barrels of oil 
savings, which come directly from the Clean Air Act enforcement 
provisions, would be forfeited.
    Mr. Waxman. So it is rather Orwellian, you have regulations 
dealing with motor vehicles that reduce the requirement that 
they use--reduce their need to use as much gasoline as 
otherwise would be the case. And they would wipe out those 
regulations potentially, we think they would, which would mean 
we would be using more oil. If consumers are using more oil, 
that is going to drive up the price than if they are using less 
oil, isn't that correct?
    Ms. Jackson. America's demand for oil is down and one of 
the reasons is, I think, because vehicles are becoming more 
efficient, that has been stated many times.
    Mr. Waxman. Well, if that is the best argument Chairman 
Upton can make for his bill, I think he is truly grasping at 
straws.
    I want to ask you about H.R. 1, the Republican funding 
bill. My concern is that the Republican budget would amount to 
a devastating assault on public health and the environment. How 
would H.R. 1, if it became law, affect EPA's ability to protect 
the public?
    Ms. Jackson. Well, as was mentioned earlier, sir, that bill 
cuts EPA's budget overall by 30 percent on the top line. That 
is a fairly dramatic cut. I would say that mindful of the fact 
that the President's proposed budget cuts EPA 13 percent from 
the top line. So those cuts--we understand that cuts have to 
happen, but it is part of my job to say that the core programs 
that EPA implements through the States, Clean Air Act, Clean 
Water Act are proven public health providers. They reduce 
premature deaths, they reduce asthma attacks, they reduce 
cancer incidences, and that is one of our concerns. Of course, 
the riders are another matter, there are several riders on that 
bill that tie EPA's hands in a variety of ways.
    Mr. Waxman. Well, I want to ask you about one of those 
riders. It would prevent you for regulating toxic emissions 
like mercury from cement plants. What would be the effect of 
this provision on public health?
    Ms. Jackson. Actually, that rider prevents us from 
enforcing or even providing assistance to cement manufacturers 
to deal with a rule that is right now on the books. That rule 
was intended to reduce mercury, cadmium, other metals that come 
from the emissions from cement manufacturing. And it is based 
on usable, and doable, and financially affordable technology. 
And what would happen is that EPA would not be able to enforce 
it at all, so there would be uneven enforcement. And 
potentially confusion in the regulated community, which could 
result in higher emissions, and later on at some point, we 
would have to come back and face the accounting for that.
    Mr. Waxman. How much concern should people have about 
mercury, cadmium and other emissions from these cement plants?
    Ms. Jackson. Well, mercury is a neurotoxin as well as a 
carcinogen. The rule was estimated to reduce mercury emissions 
from cement plants by 92 percent. So would you lose potentially 
much of that, if you are not enforcing the rule. Particulate 
matter which is a killer, 11,500 tons, 92 percent reduction 
under the rule.
    Mr. Waxman. What do mercury emissions do to children?
    Ms. Jackson. Mercury is a neurotoxin, it is toxic to brain 
development. And so as our children's brains are developing, 
and as they are in the womb, fetus development as well, it can 
be quite toxic and can cause developmental or other impacts.
    Mr. Waxman. Administrator Jackson, you have a critically 
important job. Your regulations keep kids out of the emergency 
room, avoid birth defects in babies, prevent cancers that can 
devastate families. And I would hope that as we think through 
what your budget should be, that we don't end up keeping you 
from doing this very important job, and block the essential 
regulations or gut the Clean Air Act. I don't think that is 
what the American people want. And if they find out that is 
what is happening, I am sure they are going to be very, very 
angry. I yield back my time.
    Mr. Shimkus. The chairman's time has expired. The chair now 
recognizes Chairman Emeritus Barton for 5 minutes.
    Mr. Barton. Thank you, Mr. Chairman. My State is in region 
6 of EPA and I think as you know, last summer EPA went in and 
preempted the State's flexible air quality permitting system 
that had been in place since 1993 and revoked the neighborhood 
of 150 to 175 existing clean air permits. Could you give the 
committee the budgetary impact of the EPA having to take over 
those programs for the State for the record?
    Ms. Jackson. Well, yes, certainly EPA----
    Mr. Barton. All right. Will you get that--I don't expect 
you to have that on the top of your head. Just if you could get 
it to us. And could you also get us what the Region 6 budget is 
for the current fiscal year, please?
    Ms. Jackson. Certainly.
    Mr. Barton. OK. Last year as ranking member, Congressman 
Burgess and I sent letters to you asking for your authority 
under Title 42, which is a program which was established by the 
Department of Health and Human Services to get extra salary for 
employees in special cases. We can't tell if there was any 
authority to use this program at the EPA. We got back a fairly 
murky letter in response.
    Could you now, please, submit for the record the authority 
that EPA has to use Title 42 and how many employees currently 
are paid under this Title 42. This allows the Health and Human 
Service to hire doctors and people like that that are above the 
SES pay grade. Could you do that?
    Ms. Jackson. Yes, sir.
    Mr. Barton. Thank you. So far you are doing great, every 
question I ask. All right.
    Now, they get a little bit murkier now in terms of the 
questions I am asking. I have heard you and others repeatedly 
talk about the number of lives saved because of the Clean Air 
Act and other environmental laws. I voted for the Clean Air Act 
amendments. And I said in my opening statement, I support 
strong enforcement of the Clean Air Act. I have never seen an 
analysis, however, of where you get those numbers about lives 
saved and things like that. Can you provide that analysis for 
the record for the committee?
    Ms. Jackson. Happy to. Those are peer-reviewed analyses. I 
would be happy to provide them, sir.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Barton. All right. You used in your opening statement 
the term ``carbon pollution.'' Would you care to define that 
briefly?
    Ms. Jackson. Sure, carbon pollution is shorthand for carbon 
dioxide pollution; it is to cover the class of greenhouse gas 
emissions, carbon dioxide being the one that is most--the 
highest volume.
    Mr. Barton. So you are just trying to use a shorthand 
version of CO<INF>2</INF>, or carbon dioxide. My good friend, 
Mr. Inslee yesterday, used the term black carbon pollution, 
which refers to particulate matter. The table in front of you 
is made of carbon. If had you had a diamond in your wedding 
ring, it would be made of carbon. Carbon itself is not 
obviously a pollutant. I would hope that the Administrator of 
EPA would be more precise, especially since you have a 
chemical--I believe a chemical engineering degree. If anybody 
should know what greenhouse gases are, I am looking at her 
right now.
    Ms. Jackson. Let me qualify, black carbon soot is, in and 
of itself, is a pollutant. There are many naturally occurring 
substances that are not good for you, arsenic being one that we 
can talk about, mercury we just did.
    Mr. Barton. Let's talk about mercury. My good friend, Mr. 
Waxman, asked about mercury. What is--are you going to be more 
exposed to mercury if a CFL breaks in your home or from the 
trace elements of mercury that come out of a smokestack at a 
power plant? Which is the largest exposure?
    Ms. Jackson. I have not seen a comparison of CFLs. If you 
are asking me whether CFLs have trace amounts of mercury, they 
certainly do. There are tons and tons of mercury emissions that 
come from power plants.
    Mr. Barton. You might want to check your record on that. 
The amount of mercury that comes out of a power plant stack, 
given the power plant, is in pounds per year, not tons per 
year.
    Ms. Jackson. Well, speaking cumulatively, sir, across the 
country.
    Mr. Barton. I am talking on an annual basis. OK, tons is a 
misnomer when used with mercury. You are an engineer, OK. The 
metrics matter, metrics matter. We can talk tons of 
CO<INF>2</INF>, we can do that. But in terms of mercury, trace 
elements come out of a power plant stack, and it is not tons 
per year, it is pounds per year per plant.
    Ms. Jackson. Per plant, yes, sir. But if you aggregate them 
and add them up, you get pounds and 2,000 pounds equal a ton.
    Mr. Barton. That is true.
    Mr. Shimkus. The gentleman's time has expired. The chair 
now recognizes the chairman emeritus, Mr. Dingell, for 5 
minutes.
    Mr. Dingell. Chairman, I thank you for your courtesy and 
commend you for this hearing. Madam Administrator, welcome to 
the committee.
    I am very much concerned about the President's budget 
request. I am very much concerned about the Great Lakes and 
about the severe issues of pollution and restoration and 
invasive species. I am noting that if this gets a 20 percent 
cut in this year's budget proposal, the Great Lakes Restoration 
Initiative coordinates efforts to remediate contamination, 
reduce ongoing pollution and lessen the impact of a basic 
species in this place, which is 20 percent of the world's fresh 
water.
    I am very much concerned, however, that H.R. 1, the 
spending proposal for 2011, would cut the spending in this 
program for $225 million. And I have seen on a number of 
occasions, including when Mr. Leavitt was in Michigan, that he 
was up to announce what a great job he was doing, when in point 
of fact, he was coming up to announce cuts in this particular 
program.
    Can your Agency meet its obligation to the Great Lakes and 
to our people up there who depend on this resource with the 
funding levels contained in H.R. 1, yes or no?
    Ms. Jackson. The cuts in H.R. 1 are 225 million, you said, 
sir?
    Mr. Dingell. I am sorry?
    Ms. Jackson. I couldn't hear. The cuts to the Great Lakes 
are 225 million?
    Mr. Dingell. I am sorry? 225 million it is.
    Ms. Jackson. In my opinion, the President's budget 
recommended less cuts because we believed we needed more money 
in the Great Lakes.
    Mr. Dingell. Did you meet your responsibilities, yes or no?
    Ms. Jackson. Not to the extent that we think we should, and 
that is why we didn't propose----
    Mr. Dingell. And remember that the Great Lakes are a 
geological institution, one which has been there since--for 
about 10,000 years. What will be the practical impact of these 
cuts on the Great Lakes? If you wish, you may submit that to 
the committee in writing for insertion into the record. 
According to the most recent report, I would note that with 
regard to drinking water infrastructure needs, EPA estimates 
that 334.8 billion is needed to insure public health and 
economic well-being for our cities, towns and communities. That 
report is based on 2007. Have the needs in drinking water 
infrastructure increased or decreased since 2007.
    Ms. Jackson. I would imagine they have increased, sir.
    Mr. Dingell. All right. Would you submit to us also, 
please, the real number now, because the $225 billion number is 
dated 2007.
    I note that H.R. 1, the spending proposal passed by the 
House cuts safe drinking water rotating fund from 1.387 billion 
to 830 million. Would you state for us the impact of these 
cuts? I assume they cannot be beneficial.
    Ms. Jackson. No, sir, that money is used to spend in 
communities large and small to invest in sewage treatment 
plants, green infrastructure and drinking water.
    Mr. Dingell. Would you submit a statement on that for the 
record, please?
    Now I note similarly, according to an EPA report on 
wastewater infrastructure for 2008, the need is 298.1 billion. 
Am I correct in assuming that wastewater needs have increased 
since 2008?
    Ms. Jackson. That is probably a good assumption, sir.
    Mr. Dingell. Will you give us a real number for the record, 
please, and submit that at the earliest time that you can 
comfortably do so.
    Now H.R. 1 also cuts the wastewater revolving fund from 2.1 
billion to 690 million. Would you please submit to us what 
would be the practical impact of these cuts?
    Ms. Jackson. Yes, sir.
    Mr. Dingell. Thank you. I think, in summary, you can tell 
us though that these cuts are going to be extremely destructive 
to the well-being of the Great Lakes and to the protection of 
that absolutely wondrous treasure. Am I correct or incorrect?
    Ms. Jackson. The larger the cut, the less we can afford to 
clean up and protect the Great Lakes, sir.
    Mr. Dingell. Thank you. Thank you, Mr. Chairman. I yield 
back 3 seconds.
    Mr. Shimkus. The gentleman yields back. The chair now 
recognizes the gentleman from Pennsylvania, Mr. Pitts, for 5 
minutes.
    Mr. Pitts. Thank you, Mr. Chairman. Madam Administrator, a 
couple of questions regarding EPA's staff resources. Your 
inspector general says that you need better Agency-wide control 
over staff resources. But in April of 2010, you disposed of the 
position management and control manual. In response the EPA, 
OIG stated, ``Without an Agency-wide position management 
program EPA leadership lacks reasonable assurance that it is 
using personnel in an effective and efficient manner to achieve 
missions results.''
    In light of this, considering the productivity gains 
throughout the economy, how can we be confident that all 18,000 
FTEs are required for the core mission?
    Ms. Jackson. Just over 17,000 FTEs, sir, are--what we did 
was get rid of the manual because it was outdated. And rather 
than start from an outdated piece of work, what we have done is 
focus on strategic planning and made decisions to align our 
resources with our needs. There is lots of local work that is 
done in the regions and individual offices to ensure that our 
workforce is efficiently used.
    Mr. Pitts. How many employees are D.C.-based versus field 
based?
    Ms. Jackson. Are D.C. Based--I believe 40, 45 percent of 
our employees are actually in the D.C. Metro area, not 
necessarily in D.C. Proper.
    Mr. Pitts. And what percentage of employees Agency-wide are 
eligible to retire this fiscal year?
    Ms. Jackson. I don't know that number off the top of my 
head, but it is significant. Probably close to 20 percent but 
we will get you a number for the record.
    Mr. Pitts. How many employees regulated to regulatory 
enforcement mission?
    Ms. Jackson. Regulatory enforcement? We will get you the 
number as we sit here, sir.
    Mr. Pitts. All right. And what are the job demands that are 
heaviest; legal enforcement, investigation, can you give us a 
breakdown?
    Ms. Jackson. Certainly, just roughly we spend a significant 
part of our budget on funding State programs, but our internal 
FTE are split between research and development, which is a 
rather large investment. Our enforcement program and our 
regulatory programs are, of course, large as well.
    Mr. Pitts. In case of a hiring freeze or other steps to 
achieve a reduction in force, what percentage of employees 
could be reassigned and meet essential workforce needs?
    Ms. Jackson. I am sorry.
    Mr. Pitts. What percentage of employees could be reassigned 
to meet essential workforce needs?
    Ms. Jackson. Well, you said in case of a reduction in force 
or a shutdown?
    Mr. Pitts. Or a hiring freeze, yes.
    Ms. Jackson. Or in the case of a shutdown? In the case of a 
shutdown, EPA has faced that obviously once before and looked 
to keep a staff that was mainly available to respond to 
emergencies. We have a hazardous waste and chemical emergency 
function, and that probably is the most essential of what we 
do. Then we keep the rest of our staff to try to keep the place 
running in terms of computer systems, that kind of thing.
    Mr. Pitts. A couple of questions on your workload. After 
Congress passed ARRA, grants made with stimulus funds went out 
quickly. The President signed the Recovery Act in February 
2009. By September 30th of 2009, EPA had awarded 6,483,000,000-
plus in grants, and over 302 million in contracts. How did the 
Agency handle this increased workload?
    Ms. Jackson. Well, we were fortunate under ARRA in that the 
grants went to places where we already had systems set up. So 
for the State Revolving Funds, that money goes out by formula 
to the States. Under the Superfund and Brownfields program, we 
had active contracts already that we could tap to continue or, 
in some cases, start new cleanups. And the diesel emission 
reduction program was a competitive program plus a formula-
driven program.
    Mr. Pitts. Were temporary contract employees hired to 
manage any of the ARRA fund requests?
    Ms. Jackson. Were temporary workforce hired? Not to my 
knowledge, sir. We will double-check that.
    Mr. Pitts. Did ongoing pre-ARRA contracts suffer?
    Ms. Jackson. I don't know that they would. You mean from a 
management perspective. It certainly took resources to manage 
the new money. But, again, because so much of it went through 
programs we already had, it provided an opportunity to ensure 
efficient use of resources.
    Mr. Pitts. Do you know how many permanent new private 
sector jobs were created?
    Ms. Jackson. We do have those estimates, sir, and we will 
be happy to get them to you.
    Mr. Pitts. Does the EPA analyze the cost and quality of its 
contract services?
    Ms. Jackson. Yes, sir. There have been GAO reports, 
inspector general reports, on our largest contracts which are 
under the Superfund Program and EPA. And in this administration 
we have taken yet another look at trying to find ways to 
efficiently use that money. For the rest of our contracts, yes, 
of course, we have to comply with government procurement, which 
requires review of contracts.
    Mr. Pitts. My time has expired. Thank you.
    Mr. Shimkus. The gentleman's time has expired. The chair 
recognizes the ranking member, Mr. Rush, for 5 minutes.
    Mr. Rush. Thank you, Mr. Chairman.
    Madam Administrator, your testimony references the EPA's 
budget request for an additional $6.4 million to conduct pilots 
in disadvantaged communities to evaluate and reduce risks from 
toxic air pollutants. Can you describe how toxic air pollutant 
emissions may disproportionately impact disadvantaged urban 
areas?
    Ms. Jackson. Well, the issue isn't the people; it is the 
sources, sir. What we know, it is a statement of fact, is that 
there are a concentration of sources in areas that tend to be 
poorer. It is always the chicken and egg, which came first. But 
it is just the way it happens.
    What happens over time is that you have large emissions of 
toxics. Mercury is a great example. A significant portion of 
the mercury emitted stays close to where it is emitted. So 
those communities just have a higher burden. They are places 
that in general have higher levels of air pollution.
    Mr. Rush. If the Republican budget cuts are enacted, what 
additional programs would need to be cut? What would be some of 
the consequences on these cuts as it relates to protecting the 
public health?
    Ms. Jackson. We have not done a full analysis of H.R. 1. We 
heard some of the major cuts I happen to know are in the State 
Revolving Fund. So that is less money that goes out to invest 
in water and wastewater facilities. And there is certainly 
still a huge need, as we heard earlier, in many communities 
around the country. There is a cut to the Great Lakes program, 
obviously important to you, being from Illinois; and, I think, 
the Chesapeake Bay program, another national treasure, if you 
will.
    There are cuts to our Office of Research and Development, 
to our science programs--which I think I have committed that 
science should be the backbone of our work at EPA--and other 
cuts which are smaller in various places.
    Mr. Rush. I agree, these are draconian cuts that would 
negatively impact millions of Americans as well, a Nation who 
are in desperate need of your services and your programs.
    What are the numbers in terms--maybe you haven't done a 
study on this, but let me ask the question. Have you all 
studied the impacts of urban youth--how asthma impacts urban 
youth and other illnesses as it relates to toxic emissions?
    Ms. Jackson. Well, we know that air pollution is a 
contributor to asthma attacks. We know that asthma rates have 
gone up, especially in certain populations. The Puerto Rican 
population, asthma rates are very high; higher than the 
national average. The African American population, asthma rates 
are higher than the national average. Of course, one of the 
good-news items is that the ability to treat asthma attacks has 
gotten better, so you can hopefully avoid some hospital visits 
just through treatment. But the prevalence of asthma has 
continued to increase. In some populations, it is staying 
steady.
    Mr. Rush. Continuing in the area of public health, there 
was a recent study by the American Lung Association on public 
health impacts on coal-fired power plant emissions. As you 
know, my State is a coal-producing State. The coal won't go 
away. But we have to figure out a way of using the coal and 
making it less invasive in terms of being a pollutant or making 
a nonpollutant, if possible. Are you aware of this study by the 
American Lung Association and what is your reaction to the 
study?
    Ms. Jackson. Yes, sir, I am aware of it.
    Mr. Rush. What is your reaction to the study?
    Ms. Jackson. Not having reviewed it line by line, I can 
simply align myself with the idea that there are toxic 
emissions that come from burning coal. The good news is that 
they can be controlled. We have developed scrubbers in this 
country to deal with acid rain. We have developed SCRs to deal 
with ozone pollution and smog. We have developed opportunities 
to deal with mercuries, cadmium and hydrochloric acid gas. All 
those opportunities are there, but it does require an 
investment in those plants.
    Mr. Rush. Mr. Chairman, I have about 4 seconds. I just 
wanted to use those last seconds to say you have done a fine 
job, Madam Administrator, and I think you should be applauded 
for the work that you are doing.
    Mr. Shimkus. The gentleman's time has expired.
    For my colleagues, we are supposed to expect a series of 
votes at 11:20. What I would like to ask, if you all would 
agree upon, I am going to send a member over to the floor, and 
this is for you, Administrator, also, to figure out your time 
schedule. So that it is a 15-minute vote, then there will be a 
motion to recommit, then another 15-minute vote. So I think we 
can keep the hearing going while this process continues. And if 
that is agreeable to both sides, that is what we would like to 
do. We will try to do that then.
    The chair now recognizes the gentleman from Nebraska, Mr. 
Terry, for 5 minutes.
    Mr. Terry. Thank you, Administrator Jackson, for being here 
again. The EPA has decided to propose and finalize greenhouse 
gas regulations for power plants and refineries by entering 
into a consent agreement with environmental organizations. And 
I have heard statements from the EPA that they are looking at, 
or you guys are looking at several ``categories'' for new 
source performance standards. So outside of power plants and 
refineries, what specific source categories is EPA reviewing 
for greenhouse gas regulations?
    Ms. Jackson. Those are the two, sir.
    Mr. Terry. That is the only two? The EPA is not looking at 
other sources?
    Ms. Jackson. No, sir. We actually faced lawsuits to 
promulgate four other sectors. I am aware of one for several 
manufacturing sectors. And when you look at greenhouse gas 
emissions, they are largest from power sectors and refineries. 
So rather than start with the small sources----
    Mr. Terry. So it would be accurate to say the EPA is not 
looking at electric arc furnaces as a new source.
    Ms. Jackson. Electric arc furnaces used in manufacturing 
various metals. No. No. I do believe we have lawsuits--I just 
need to be clear--from groups asking us to promulgate those 
requirements. We do have new source----
    Mr. Terry. What is your opinion on the likelihood of the 
success of those lawsuits?
    Ms. Jackson. The likelihood is high----
    Mr. Terry. Successful in that you will have to regulate 
them as a new source?
    Ms. Jackson. We will have to come out with a schedule at 
some point to regulate them. But we believe that we don't need 
to do that in the immediate future.
    Mr. Terry. All right. Is the EPA looking at diesel engines 
as a new source?
    Ms. Jackson. Well, mobile sources are different. We are in 
the process of looking at truck and light-duty vehicle rules. 
So diesel----
    Mr. Terry. Under the President's order on CAFE.
    Ms. Jackson. That is right. And Clean Air Act, yes. Sir?
    Mr. Terry. And large diesel engines.
    Ms. Jackson. Yes, indeed, it does. For trucks.
    Mr. Terry. In previous times you were here, even though I 
represent an urban-suburban area of Nebraska, the rest of the 
State I care about, and we are an ag economy in the State of 
Nebraska. I am concerned about the EPA's figures that 37,000 
farms are above the threshold of a major source. You have 
previously stated that there is no intention by the EPA of 
regulating them for greenhouse gases. Is that still true today?
    Ms. Jackson. That is absolutely true, yes. There is no 
intention.
    Mr. Terry. But, just like in our first discussion on other 
sources, one lawsuit away from regulating them. Is that a fair 
statement?
    Ms. Jackson. As you heard earlier, we face lots of 
lawsuits. It is my job as----
    Mr. Terry. Has there been a lawsuit already filed to force 
you to regulate those 37,000 farms for their carbon emissions?
    Ms. Jackson. Not that I am aware of.
    Mr. Whitfield. Would the gentleman yield?
    Mr. Terry. I will yield to the gentleman from Kentucky.
    Mr. Whitfield. My understanding, lawsuits have been filed 
to invalidate the tailoring rule. Is that true or not?
    Ms. Jackson. I believe that is true, sir.
    Mr. Whitfield. Thank you.
    Mr. Terry. The last part is in particulate matters. Is the 
EPA reviewing farm practices regarding particulate matter?
    Ms. Jackson. EPA is required under the Clean Air Act to 
look at particulate matter pollution every 5 years and 
potentially adjust. As you know, the Clean Air Act right now 
regulates particulate matter.
    Mr. Terry. And you understand many of our farmers have to 
plow, and that raises dust.
    Ms. Jackson. I do indeed, sir.
    Mr. Terry. Is there an attempt by the EPA to recognize the 
reality of farming and dust and exempting our farms?
    Ms. Jackson. There is indeed a recognition at EPA that dust 
happens. But----
    Mr. Terry. That would be a good bumper sticker: Dust 
happens.
    Ms. Jackson. That is better than some I have heard. So what 
I would like to say is we have had several listening sessions 
already on particulate matter with stakeholders in rural 
America, in farm country. We have more to do. We do have a 
determination to make about the current standard. But I have 
committed that we are going to listen before we do that.
    Mr. Terry. Listening is good. Exempting them, better.
    Mr. Shimkus. The gentleman's time has expired.
    The chair recognizes the gentleman from Massachusetts, Mr. 
Markey, for 5 minutes.
    Mr. Markey. Thank you, Mr. Chairman.
    Madam Administrator, yesterday we held a subcommittee 
markup of the Republican legislation to overturn the scientific 
finding that global warming pollution endangers public health 
and welfare and prevents EPA from setting greenhouse gas 
emission standards.
    Do you agree that this legislation will dramatically 
increase our dependence on foreign oil because it prevents EPA 
from taking actions to reduce oil use from cars, trucks, 
planes, boats, trains, construction equipment, or large 
industrial users of oil?
    Ms. Jackson. Yes.
    Mr. Markey. Yesterday, retired senior military officers 
sent Congress a letter on this legislation. I would like to ask 
unanimous consent to insert a copy of that letter into the 
record.
    Mr. Shimkus. Without objection, so ordered.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Markey. Thank you, Mr. Chairman.
    Do you agree that the views of these heroes that the 
legislation undermines EPA's regulatory authority that is 
critical to reducing the clear and present danger to the 
security and welfare of the United States that our oil 
dependence represents?
    Ms. Jackson. I certainly agree with the sentiment, sir.
    Mr. Markey. Last week the New York Times reported that 
radioactive wastewater from hydraulically fractured wells in 
Pennsylvania and West Virginia has been sent to sewerage 
plants, even though the radiation levels could be as high as 
2,000 times the EPA water standards. This radioactive water was 
reported to be dumped into rivers; in some cases, within a mile 
of drinking water intake facilities. I know that you 
immediately went to Pennsylvania to look into the matter. And I 
commend you for your leadership.
    In response to the Times series, on Monday the Pennsylvania 
Department of Environmental Protection released results from 
seven water samples taken downstream fromwastewater treatment 
plants that show radiation was not elevated. Do you think that 
seven water samples are enough to fully understand the impacts 
from hydraulic fracturing in the State of Pennsylvania?
    Ms. Jackson. Sir, our regional scientists responded with a 
letter. No. The short answer is no. I think those are one-time 
samples. And it depends on flow rate and flow rate in the river 
as to whether or not there could still be potential radiation 
entering those wastewater treatment plants.
    Mr. Markey. Do you think that all drinking water systems 
that are located near wastewater treatment facilities that 
accept drilling waste should monitor intake water for 
radioactivity and other potentially hazardous byproducts of 
these activities?
    Ms. Jackson. I think unless there is proven evidence that 
radiation isn't entering into those treatment plants, then that 
is a good, prudent move, to be monitoring more frequently.
    Mr. Markey. So you believe that they should all be 
monitored.
    Ms. Jackson. Certainly, monitored. Again, if no one is 
sending wastewater to the treatment plants, then you could 
stop. But the concern is related to the transport of 
wastewater.
    Mr. Markey. So if they are accepting drilling waste, then 
there should be monitoring. Is that what you are saying?
    Ms. Jackson. Right. If the treatment plants are accepting 
drilling waste and unless you can prove without a shadow of a 
doubt that there is no radiation there, monitoring is our key 
to give the public confidence.
    Mr. Markey. There is no question that families do not want 
polluted water coming into their children's bodies at an early 
age. It can have a dramatic impact upon their development. So I 
agree with you, the water should be monitored.
    Is diluting the drilling waste by disposing of it in rivers 
or streams a permissible way to treat wastewater that contains 
radioactive or other hazardous materials?
    Ms. Jackson. Generally, that is not the way the system 
works. We prefer to see treatment or removal of the pollution 
before it enters the waterway. That is not to say that some 
amounts of radiation in the waterway wouldn't happen naturally 
or even through the treatment process.
    Mr. Markey. Do current EPA regulations allow forwastewater 
treatment facilities to accept wastewater from drilling 
operations if they do not know what materials are in it?
    Ms. Jackson. No. The pretreatment standards under the Clean 
Water Act require that you know what you are accepting and have 
adequate characterization of that.
    Mr. Markey. So if it is illegal, does EPA plan to tell 
States that they should stop allowing this to occur, as it 
seems to have occurred in Pennsylvania?
    Ms. Jackson. I believe that EPA is working right now to 
understand whether this is still going on and to what degree. 
There have been pretreatment standards. I think EPA in its 
letter requested that Pennsylvania basically relook at every 
permit for any facility that may be accepting thatwastewater.
    Mr. Markey. Given the findings in the New York Times, what 
are the plans that the EPA is making, if any, to change the 
processes at the Agency in terms of worker safety, impact on 
children, the pollution, the radioactive chemicals, other 
contaminants in wastewater? Are there any other changes you are 
making?
    Ms. Jackson. I think we can certainly improve. At EPA we 
are proud of our record in having $6 million in this budget to 
look at hydrofracking, but we have also said at the same time 
that if we become aware of public health threats, they need to 
be addressed. So EPA needs to work. The State has a huge role 
to play here in ensuring that their citizens are safe. We would 
like to be in the process of supporting them. But we certainly 
can take actions on our own if we need to.
    Mr. Shimkus. The gentleman's time has expired. The chair 
recognizes the gentleman from Oregon, Mr. Walden, for 5 
minutes.
    Mr. Walden. Administrator Jackson, thanks for being here 
again today. We appreciate it. I have got a couple of questions 
I would like to run past you as well. One involves the utility 
MACT that your Agency is working on. I wonder if EPA is going 
to provide any flexibility for coal plants that have agreed to 
State-approved, federally enforceableshutdown dates for their 
operations: To-wit, it is the PGE plant in my district, 
Portland General Electric, that entered into an agreement with 
the State to shut down, and they will install 60 million 
mercury and nitrous oxide scrubbers and all before 2020 when 
they close. Now, that is still 20 years before the life of the 
plant runs out. But the deal they reached was: Close it down.
    They are concerned that your Utility MACT would force an 
additional installation of $510 million worth of equipment 
between now and when they are already set to close it down in 
2020. And so it is obviously an important issue.
    Ms. Jackson. Well, two things. First, the utility air 
toxics rule has not come out. It hasn't been proposed. It is 
due next week. And then it will go through public comment 
before finalization. So I really can't comment on what that 
rule will say or won't say until it is absolutely done. What I 
can also say is I am aware of this matter. It was brought to my 
attention by one of your colleagues. And there is certainly 
potential for discussions about this specific incident that I 
think----
    Mr. Walden. This is a situation they reached an agreement 
with the State, they are complying with the environmental rules 
in existence, they are phasing out their plant 20 years early. 
They are installing $60 million in recovery already, trying to 
look at jobs, economy rates. And if they were to shut it down 
early because of this--earlier than that--then you have got a 
problem on the grid, I think, in terms of replacing that power 
abruptly. So I am glad you are flagging that. If you want to 
make a note, that would be really good.
    And then the other issue involves--and there is been some 
discussion about this--the cement rule. I have a facility, 
imagine that, in my district that has done its best. I think 
they have spent something like $20 million to reduce--to put in 
new scrubbers and all to reduce their emissions. I think they 
are pushing 90 percent reduction today. They have got 116 
employees. Three years before the EPA standards take effect, 
they have reduced their emissions by 90 percent, and before the 
rest of the cement industry has to comply.
    The concern is that the cement rule, that they don't have 
the technology available to them to get much above that 90 
percent. And the way this is playing out, they may end up 
having to close. That is a rural county; got 116 jobs.
    Meanwhile, I know there is a huge, big, new construction 
project at Intel over in Oregon; I am told they are buying 
their cement from China. And I think your own data from EPA's 
road map for mercury in July of 2006 said three-quarters, or 86 
percent, of the mercury deposited in the U.S. originates from 
international sources.
    When I go home and try and explain what is happening from 
back here to those folks who are looking at losing their 116 
jobs, biggest employer in a little county, and they just put 
$20 million in scrubbers, and then they see most of the mercury 
is coming in from overseas anyway, or internationally. We are 
kind of like on the West Coast where tsunamis end and stuff 
comes in the air. I am just wondering if there is any 
flexibility that you might be able to make a note on and help 
us on.
    Ms. Jackson. When the cement toxics rule was promulgated 
there was lots of consideration of sources--individual sources 
that were putting on controls early and doing everything they 
could to bring down their emissions early. I am happy to have 
my air office take a look at this specific source. I really 
don't have the details.
    Mr. Walden. Right. We tried to get a subcategory, which I 
think is allowed under the Clean Air Act. That was rejected. 
But if you could, I would appreciate that.
    Ms. Jackson. I would be happy to.
    Mr. Walden. I want to associate myself with the comments of 
my colleague, Mr. Terry of Nebraska. My district is very rural, 
very dry. We do dryland wheat. We do cattle. My guys, ranchers, 
are very concerned about the particulate dust rule that is 
being considered. Cattle ranchers tell me you couldn't drive 
down an eastern Oregon gravel road and not probably trigger 
enough dust to maybe violate it. And the wheat guys are saying, 
We may have to drag some sort of mister behind our equipment to 
tamp down the dust. If we had that much water in eastern 
Oregon, I guess we wouldn't have dryland wheat. So as you 
listen to these comments I hope you will take that into 
consideration.
    Finally, we have got a chart here that just I think 
reflects the concern that is coming our way in terms of just 
the multitude of regulations that different industries are 
having to deal with all at once or in a fairly short timeline. 
This is potential air regulations affecting the forest products 
industry.
    I am just wondering, do you do a cumulative impact look at 
all these regulations on an industry set and do any kind of 
economic analysis of what that may mean? Because, boy, I am 
hearing it back the other direction right now.
    Ms. Jackson. We are required under the President's 
executive order to look retroactively at our regulations to 
determine whether there are more effective ways to regulate, to 
get the clean air and clean water benefits we all want, and 
also look at costs and impact. We are happy to do that. I have 
seen those charts. Industry produces them. They come out every 
few years. This one is not unique. But if you look at what we 
are required to do under law to update our standards, many of 
those things are not regulations but science and health 
standard.
    Mr. Shimkus. The gentleman's time has expired.
    The chair recognizes the gentlewoman from California, Mrs. 
Capps, for 5 minutes.
    Mrs. Capps. Thank you, Mr. Chairman. And thank you, 
Administrator Jackson, for being with us and for your 
testimony.
    It is well documented that the Nation's water utilities 
will have to address hundreds of billions of dollars worth of 
infrastructure needs over the next few decades. EPA, for 
example, found in 2007 that drinking water systems alone will 
have to spend $335 billion to maintain and replace their 
infrastructure over the next 20 years. But these estimates do 
not take into account additional costs that water utilities may 
incur as they are forced to react to the impacts of changing 
climate conditions on their communities and their water 
supplies.
    In fact, a 2009 study by the Association of Metropolitan 
Agencies and others estimated that adaptation measures could 
cost America's water systems up to $900 billion through 2050.
    Are there some programs in place--that you are putting into 
place at EPA at helping State and communities adapt their 
operations and infrastructure to changing climate conditions 
over the next several decades?
    Ms. Jackson. EPA has a focus on what is kind of--the buzz 
word is green infrastructure; the idea being that as much as 
possible, you work with nature. You understand that in those 
places where you might have wetlands, or wetlands in the 
future, those provide an opportunity to filter water. I know 
New Orleans has a pretty innovative project that way.
    So we do try to work with systems, but it would be unfair 
for me not to say that that is a significant issue facing water 
and wastewater systems as our climate changes.
    Mrs. Capps. I am just curious. Are you getting into that 
topic as you assess infrastructure needs? Is it compounding the 
way you are making it--more complex as you the way you are 
looking at the future as you think about infrastructure needs 
just based on current situations?
    Ms. Jackson. Yes. Yes.
    Mrs. Capps. So your model is including adapting.
    Ms. Jackson. Well, yes. But our cost estimates, the numbers 
you gave, the $335 billion doesn't really look at adaptation 
costs. But we know that costs are going to increase 
dramatically if you project out 10, 20, or 30 years in terms of 
need.
    Mrs. Capps. Are you trying to put a dollar on that?
    Ms. Jackson. I will check to see what we have.
    Mrs. Capps. I would be interested to know how you are doing 
that.
    Mrs. Capps. Another topic. EPA has a long history of 
providing categorical grants to States and tribes to implement 
environmental laws. These grants are designed to help States 
clean up hazardous waste, enforce drinking water standards, and 
reduce exposure to toxins such as leads and PCBs.
    In these economic times, State budgets are spread way too 
thin and these funds that they may have allocated maybe have 
been squandered for other needs. I know we both agree that 
these are essential grants. The President's 2012 budget 
requests an increase for these grant programs. Would you talk 
about the ways that that might fit into the States' budget 
woes?
    Ms. Jackson. It is a recognition, Congresswoman, that 
States are strapped and that States are the primary deliverers 
of environmental protection. They write the vast majority of 
permits, inspections, and enforcement. Many States implement 
their own hazardous waste cleanup programs, air, water quality; 
tribal assistance also. So we felt that in these tight times it 
was a prudent investment to invest in the States, even though 
we are having to cut back.
    Mrs. Capps. And that leads to a follow-up question, which 
the Republican continuing resolution, H.R. 1, cuts funding for 
these very grants by $60 million from 2010 levels and $220 
million from the Agency's 2011 request. And we are doing this 
believing that doing--the majority thinks they are doing the 
right thing for the Federal Government's response to our 
deficits. But what we are doing to States is leaving them high 
and dry.
    In general, would you specify what the impact of this kind 
of decrease would have on the States' ability to address, for 
example, public health?
    Ms. Jackson. Well, ECOS, the Environmental Council of the 
States, they are very concerned about cuts to State programs. 
As I said, this is the meat and potatoes of environmental 
protection. These are the folks who are on the front line 
having to respond to a plant who wants to expand but needs an 
air permit in order to do it.
    So you will have an impact on public health because you 
will either have unpermitted expansions, which is not good, or 
you will have an impact on economic development because they 
can't get timely action. So we are trying to invest in State-
level environmental protection.
    Mrs. Capps. OK. I have another question but I will yield 
back in the interest of getting to more people before we vote. 
Thank you very much.
    Mr. Shimkus. The chair thanks our friend from California.
    The chair now recognizes the chairman of the full 
committee, Mr. Upton, for 5 minutes.
    TheChairman. Let me just defer.
    Mr. Shimkus. The chair now recognizes the gentleman from 
Pennsylvania, Mr. Murphy, for 5 minutes.
    Mr. Murphy. Thank you, Mr. Chairman.
    Madam Administrator, I assume you are committed to good 
scientific knowledge and a commitment to communication with 
States. But let me ask you a couple of things. Have you read 
the whole New York Times series on fracking from Pennsylvania?
    Ms. Jackson. I have, sir.
    Mr. Murphy. Was it fully scientifically accurate?
    Ms. Jackson. No, I think----
    Mr. Murphy. Did you respond in any public way to challenge 
the scientific accuracy of anything in that article?
    Ms. Jackson. Me personally, no. I----
    Mr. Murphy. Were you aware that although the reporter 
extensively quotes former Pennsylvania Secretary John Hanger in 
the article, that he never actually talked to him?
    Ms. Jackson. Yes. I have read Mr. Hanger's blog on this.
    Mr. Murphy. Who is the EPA employee or consultant that 
spoke anonymously with the New York Times for this article, and 
will you give us their name?
    Ms. Jackson. They are anonymous, sir. How would I know?
    Mr. Murphy. Just trying to get scientific data here. Can 
you get us the unpublished EPA report from 2009 that is 
referenced in the article?
    Ms. Jackson. Certainly.
    Mr. Murphy. Continuing on with the scientific accuracy of 
the article, the article says that DEP employees doubled in the 
last 2 years who would look at fracking. Do you have any idea 
how many that was?
    Ms. Jackson. I just spoke to former Governor Rendell, who I 
think said it went from 85 to 200-plus employees.
    Mr. Murphy. It went from 88 to 202. That is not doubling. 
Did you meet or call or otherwise directly communicate with the 
Secretary of the Pennsylvania Department of Environmental 
Protection, Mike Krancer?
    Ms. Jackson. I attempted to, sir, but he didn't----
    Mr. Murphy. Are you aware that your Regional Director 
Garvin has also not spoken to Secretary Krancer until moments 
before the public letter was released?
    Ms. Jackson. That is because Secretary Krancer canceled the 
call that we had set up with him----
    Mr. Murphy. A letter was nonetheless released. Are you 
aware of the content of that letter that says basically that 
EPA is claiming jurisdiction on a number of water issues and 
telling Pennsylvanians what to do about this?
    Ms. Jackson. That is not at all true. I have the letter, 
sir; I am happy to share it.
    Mr. Murphy. I have it, too. What specific actions--are you 
aware of what specific actions DEP----
    Mr. Waxman. Will the gentleman yield?
    Mr. Shimkus. The chairman emeritus will not interject. The 
gentleman from Pennsylvania has the time. The gentleman from 
Pennsylvania will continue.
    Mr. Murphy. Do you have a list of what specific actions DEP 
is doing or not doing which you believe is in violation of 
water standards?
    Ms. Jackson. Sir, we haven't claimed that DEP is in 
violation. If you read the letter, it talks about necessary 
sampling to ensure public health and safety.
    Mr. Murphy. The letter does indeed claim--and I will submit 
it for the record, if that is all right. It says: The EPA will 
take additional steps, directly using our authorities. And it 
goes on to claim those. So it does do that.
    Ms. Jackson. That is out of context, sir. It talks about 
the State. But it assures the State that we will take the steps 
if necessary to----
    Mr. Murphy. But I would still like you to provide this 
committee wit a list of what specific things you are claiming 
the DEP is doing or not doing.
    Now, on the issue of radiation, the New York Times article 
claims it is hundreds or thousands of times the level of 
radiation. Do you have information you can provide this 
committee on naturally occurring background levels of radium 
that occurs when someone drills a water well or when someone 
digs a basement for a house; can you provide that information 
so we can compare it with these claims. Will you do that?
    Ms. Jackson. Certainly. I think it is going to be based on 
DEP sampling, Pennsylvania sampling. Certainly.
    Mr. Murphy. Is the Department of Environmental Protection 
in Pennsylvania tolerating the dumping of untreated water now?
    Ms. Jackson. I don't know that to be the case, sir. I know 
the article alleges that, but I don't know that to be the case.
    Mr. Murphy. Yet the EPA has not made any public statements 
regarding the scientific----
    Ms. Jackson. We are attempting to get data with the State--
--
    Mr. Murphy. You have sent a letter to Pennsylvania, 
claiming jurisdiction of actions you are going to take.
    Ms. Jackson. No, we have not, sir.
    Mr. Murphy. Prior to your regional director, or you, you 
still have not spoken with our Secretary.
    Ms. Jackson. I reached out to the Governor, who did not 
take my call, and we reached out to the director. We actually 
had a call scheduled.
    Mr. Murphy. I was meeting on Monday with the Secretary of 
DEP who said he would be glad to take your call but you haven't 
called him.
    Ms. Jackson. Well, same. I would be happy to take his if he 
would like to speak to me.
    Mr. Murphy. Given you haven't reviewed the New York Times 
for scientific comment or its accuracies or inaccuracies, you 
have not spoken to the Secretary of DEP, your regional director 
only spoke with them after this letter was publicly released--
we don't have the scientific data on that--it begs the 
question: Do you believe the Federal and the Environmental 
Protection Agency cares more about Pennsylvania's families than 
Pennsylvanians do?
    Ms. Jackson. No, sir, not necessarily.
    Mr. Murphy. Then I would certainly hope that you would 
start to communicate with Pennsylvanians and our DEP and ask 
them what they are doing and review that before EPA----
    Ms. Jackson. That is precisely what the letter does, sir.
    Mr. Murphy. The EPA claims they are taking action there.
    I yield back.
    Mr. Shimkus. The gentleman's time has expired.
    The chair recognizes the gentlewoman from California, Ms. 
Matsui, for 5 minutes.
    Ms. Matsui. Thank you, Mr. Chairman. And I would like to 
thank you, Administrator, too, for being here with us today, 
and thank you for your leadership on embracing environmental 
stewardship.
    In my home district of Sacramento we have over 220 clean 
energy companies that are selling and manufacturing advanced 
technologies. I routinely hold clean energy roundtable and 
convening forums with CEOs, utilities, colleges, and local 
business leaders in Sacramento. And they all are eager to see 
national energy standards.
    It is critical that we continue to invest in the future of 
our clean energy economy to create jobs, preserve the 
environment, and to establish energy independence. And I 
believe the EPA's budget does just that.
    More than half of the total renewable energy supply to 
electricity users in Sacramento last year came from biomass 
waste and residues. EPA recently announced it would defer for 3 
years greenhouse gas-permitting requirements for industries 
that use biomass. I understand the Agency intends to use this 
time to further analyze scientific issues associated with 
carbon dioxide emissions from biomass-fired sources. How does 
EPA's budget proposal address the planned study and rulemaking 
associated with biomass?
    Ms. Jackson. The budget proposal envisions using that time 
to do a peer-reviewed study--I believe with the National 
Academy of Sciences, but let me confirm that for you--to look 
at the carbon footprint essentially of various forms of 
biomass.
    Ms. Matsui. So would cuts to EPA's budget affect the 
Agency's timelines to determine rules on biomass?
    Ms. Jackson. I think there are some concerns that, 
depending on the cut and also potential rider language that we 
have seen, that there could be some impacts. But it is not 
intended in the President's budget that there be any impact.
    Ms. Matsui. Certainly. I hope you will be able to provide 
regions like Sacramento regulatory certainty soon on this 
biomass issue as we look to increase our use of renewable 
energy resources.
    In Sacramento, businesses with projects that are potential 
sources of air emissions are currently required to obtain 
permits from our local air district and separately from the 
EPA. I understand the implementation of the State 
Implementation Plan for the Sacramento region would streamline 
the administrative process and help prevent this dual-
permitting requirement. Does your budget address the timely 
implementation of SIPs? If so, how?
    Ms. Jackson. Well, our budget does include funding for 
States for development of SIPs and for the air programs review 
of SIPs. Although we are trying to do more and more with less 
and less, I believe that the money we have is adequate to fund 
our needs in that manner.
    Ms. Matsui. During the CR debate we saw a number of 
amendments that would block any EPA action on anything to do 
whatsoever with any greenhouse gas. From my understanding of 
the impacts of this provision, this would have serious 
unintended consequences for job creation and public health 
throughout the country. Could you explain how H.R. 1 would have 
affected the greenhouse gas reporting rule?
    Ms. Jackson. Certainly. I believe there is a rider in H.R. 
1 that would have prevented EPA's implementation of the 
reporting rule for all major sources. Actually, for all 
sources. We simply would not have had implementation.
    Ms. Matsui. So what would happen to new projects seeking a 
preconstruction permit in States like Arkansas, California, 
Wyoming, and Oregon, that have Federal implementation plans for 
permitting for greenhouses gases? Would they still be able to 
get a permit if EPA is stopped from taking action; or to the 
Energy Star program, which saved consumers $17 billion in 2009?
    Ms. Jackson. With respect to the Energy Star program, the 
original language in the rider that had to do withgreenhouse 
gases appeared to put in jeopardy implementation of Energy 
Star. I am not sure that new language would do that. Actually, 
excuse me; in the riders, yes, it would put into jeopardy the 
Energy Star program. As far as permitting, yes; major source 
permitting would be in jeopardy, depending on the rider that 
passed.
    Ms. Matsui. I thank you.
    Mr. Shimkus. The gentlelady yields back her time. The chair 
now recognizes the gentleman from Texas, Mr. Burgess, for 5 
minutes.
    Mr. Burgess. Madam Administrator, I thank you for being 
here. As you recall when you were here before, a month ago, I 
submitted to you a list of six or questions, obviously still 
waiting on the answers of those. I won't revisit them today, 
but just to emphasize that I would like to have answers to 
those questions.
    Let me spend a minute and give you a chance to clarify some 
of your testimony that you gave a response to Ranking Member 
Waxman's questions to you. Perhaps you could define what you 
mean by the ``opposite of true.''
    Ms. Jackson. The opposite of truth is untruth, a lie, not 
accurate, fiddle-faddle.
    Mr. Burgess. Did you mean to imply that the chairman of the 
full committee had lied?
    Ms. Jackson. It is not true to say that greenhouse gas 
regulation of automobiles, which has already been successfully 
accomplished in this country, has had any impact on gas prices. 
And, further, it is just the opposite. It----
    Mr. Burgess. Here is the deal. The bill could not be more 
clear, because it explicitly preserves the Car Rule. There is 
no secret here. There is nothing done to disturb the Car Rule. 
In fact, it is the chairman's stated goal that the rule will be 
protected and proceed. The language contained in his bill was 
carefully drafted and vetted to ensure that the Car Rule 
remains effective.
    I would encourage you to reevaluate your comments in light 
of the fact of what is actually contained within the bill. And 
I will be happy to provide you a copy of the bill if that would 
be helpful to you.
    Let me ask you a question. Perhaps we are going to run out 
of time because of the vote.
    Ms. Jackson. I would like to be able to respond, but I will 
do it on the record.
    Mr. Burgess. I would very much like for you to clarify the 
record because that is important. I don't think you meant to 
say what you said.
    Mr. Burgess. Let me ask you a question about your tenure at 
the EPA. There have been a lot of court cases that you have 
settled with environmental groups where the settlement resulted 
in a new rulemaking. Do you have an idea of how many times that 
has happened?
    Ms. Jackson. I know it happens. It is not unique to my 
tenure at EPA, but it certainly happens quite often we settle 
cases rather than litigate them.
    Mr. Burgess. It would be, I think, instructive for this 
committee to see how the number of cases that you have settled 
in this way compared with predecessors. It seems like we are 
quick to cite judicial reasons for the making of the new rules. 
But how many rules have been promulgated absent a judge's order 
under your tenure? Do we have an idea about that?
    Ms. Jackson. I can certainly get you that. We promulgate 
many minor rules but our major rules are either under court-
ordered deadline because prior rules were thrown out--those are 
the Clean Air Act rules--or the results of settlements or 
litigation where EPA had a clear duty to propose a rule to 
protect human health, but had not---
    Mr. Burgess. Generally, is it more cost effective to enter 
into an agreement with the parties in a dispute or go to 
judicial action?
    Ms. Jackson. Well, that goes to litigation risk. That is a 
determination made by the Department of Justice and EPA 
together.
    Mr. Burgess. Whether it is fair or not, the implication is 
that your administration tends to go more quickly the 
judicial----
    Ms. Jackson. I don't know that is fair. I think that is not 
a fair conclusion. All administrations of the----
    Mr. Burgess. I would like, I don't know about the rest of 
the committee, but I would like to see the data to be able to 
make that determination.
    Let me ask you a question. Are you familiar with a case 
that has occurred down in Texas, in Parker County, dealing with 
a drilling company known as Range Drilling and the appearance 
of methane gas in some water wells?
    Ms. Jackson. I am generally familiar.
    Mr. Burgess. Are you familiar with the Railroad Commission 
of Texas, that they held a hearing in January and they recently 
published their report from that? Have you a copy of that?
    Ms. Jackson. I don't have a copy but I am generally 
familiar with their findings.
    Mr. Burgess. Can I encourage you to get a copy? Because 
your regional administrator went on television in early 
December with some fairly inflammatory remarks. The result of 
the investigation, in which the EPA did not participate, I 
might add, although it was requested by the State Regulatory 
Agency for the EPA to participate, but the EPA chose not to, 
but the conclusions that were put forward on the television 
remarks were in fact not accurate. The source of the gas 
present in the water wells in question was from an entirely 
different geological strata than the strata that has been used 
for extraction of natural gas with hydrologic fracturing.
    So I think it is so important that the EPA work closely and 
not in an adversarial relationship with the State agency. Texas 
is a big State. You can't possibly be everywhere all the time. 
In my opinion, you should rely on the State agencies to help 
you rather than be always at a 90-degree angle. This activity 
by your Region 6 administrator in December I found to be very 
injurious. And I would like for you to look into that and 
provide us your evaluation of those activities.
    I yield back, Mr. Chairman.
    Mr. Murphy [presiding]. The chair recognizes the gentlelady 
from Wisconsin, Ms. Baldwin.
    Ms. Baldwin. Thank you, Mr. Chairman. Thank you for your 
testimony, Administrator Jackson.
    EPA's mission, which you know well, is to protect human 
health and the environment, on which we all rely. It is a 
mission that is critically important to children and families 
in communities across America. In my home State of Wisconsin, 
we treasure and cherish our environmental resources. We rely 
heavily on groundwater and fresh water from abundant lakes 
through the State. We believe in protecting our wetlands and 
ensuring our air is clean to breathe.
    The means by which you carry out your mission is by 
enforcement of laws and regulations.
    Briefly, about the budget. At first review, I believe the 
President's budget recognizes the importance of EPA's mission 
while responsibly cutting spending. These cuts have been 
proposed after serious evaluation and careful consideration. 
And they demonstrate an effort to responsibly reduce the 
deficit during these very difficult economic times.
    In sharp contrast, H.R. 1, as passed by the House 
Republicans, would cut EPA's overall budget by 30 percent this 
year. It is the largest cut to any Federal agency. It would 
impose deep cuts to State drinking water and clean water State 
Revolving Funds, programs to clean up brownfields and Superfund 
sites, and efforts to address greenhouse gas emissions and 
other pollutants. In fact, I believe H.R. 1 strips EPA of its 
ability to meet its basic and important mission.
    Now, I am certainly not naive. Times are tough. The economy 
is struggling to recover from a deep recession. And I agree 
with my Republicans colleagues that we must reduce the deficit 
and bring our budget into balance. But we have to be smart 
about it. We have to be smart about it. We can't halt efforts 
to ensure clean air, safe water, and the sustainable 
environment by putting our heads in the sand and blindly 
cutting critical programs. Such action is irresponsible.
    I agree with our President when he said in the State of the 
Union that if we are to win the future, we mustout-educate, 
out-innovate, and out-build the rest of the world. By making 
sound investments in our environmental resources, we are 
creating jobs, growing our economy, and protecting our national 
security.
    These days, it seems that every regulation has folks and 
industry crying wolf about the dire consequences that such 
regulations will have on our economy. For decades now we have 
heard that regulations to address, for example, lead in paint 
or acid rain or CFCs would cause great suffering. And today we 
are often hearing the same story about regulating greenhouse 
gases, air hazards, and toxic chemicals. We hear cries that 
they will force firms out of business, et cetera.
    Administrator Jackson, can you speak to this doomsday 
scenario that we are hearing all around us? Historically 
speaking, when EPA regulations have gone into effect, have the 
economic costs been on a par with the estimates? Just broadly.
    Then I would like to address a couple of specific 
historical regulations.
    Ms. Jackson. Historically, the costs are much, much less 
than industry estimates, and often less than EPA's. The Acid 
Rain Trading Program was 20 times cheaper than what industry 
said it would be. We already know that we hear often times--I 
remember with the stratospheric ozone program that when we 
switched CFCs it would cause a quiet death for the 
refrigeration industry. Nothing of the kind happened. We saw 
the industry thrive.
    So over 40 years of the Clean Air Act, GDP is up 207 
percent and air pollution is down 50-plus percent. I think you 
can have both economic growth and clean air and public health.
    Ms. Baldwin. So when the Energy and Commerce Committee was 
considering the Clean Air Act's Amendments of 1990 and industry 
estimated that the measure would cost between $51 and $91 
billion, was that accurate?
    Ms. Jackson. No. I know that the estimates were much, much 
less than the 1990 industry estimates. It was not accurate at 
all.
    Ms. Baldwin. Utilities estimated that SO<INF>2</INF> 
allowances would cost $1,000 to $1,500 per ton. Did that end up 
ringing true?
    Ms. Jackson. No, that was not true either.
    Ms. Baldwin. I was going to go on to another question but I 
see I only have 15 seconds left. So I think I will rest there 
and submit that separately in writing. Thank you.
    Mr. Murphy. The chair recognizes Mr. Latta of Ohio.
    Mr. Latta. Thank you very much, Mr. Chairman. And, 
Administrator, thanks for being with us today. Good seeing you 
again. I appreciated our meetings that we have had in the past.
    If I could, I know it has kind of come up already on the 
clean water and drinking water revolving funds, if I can bring 
that up a little bit. On page 2 of your testimony you said 
that: Because of the constrained fiscal environment, the budget 
decreases the State Revolving Fund by nearly $950 million while 
supporting a long-term goal of providing about 5 percent of the 
total water infrastructure spending and spurring more efficient 
systemwide planning.
    But when you are cutting $947 million from these funds and 
you are allocating at the same time about $252 million in 
climate change, and even though we have been talking about that 
$252 million is an increase of $56 million from those that were 
enacted in fiscal year 2010, it is getting to the point, as we 
have talked, that these localities just can't afford this.
    I guess my question is that, as we are increasing funds for 
the climate fund programs that Congress has made clear for 
weeks you don't have the authority to regulate, my question is: 
What are we going to do for these communities out there that 
are really suffering?
    Ms. Jackson. We continue to fund in the President'sproposed 
budget the State Revolving Funds. The goal is to try to get to 
a point--remember, they are revolving. So there are loan 
paybacks that come in that also go into the funds to get to a 
point where we are funding about 5 percent of need on an annual 
basis, not the cumulative need. And there are tough choices, I 
would certainly admit that. But after unprecedented 
expenditures in the Recovery Act, we had $6 billion there, plus 
the President had a huge increase in the SRF in his 2010 budget 
in a tough year. It seemed that we just would not be able to be 
as generous this year.
    Mr. Latta. Also, I know some other members have brought 
this question on the green side. Under your budget proposal for 
the Agency, it mandates that no less than 10 percent of the 
Drinking Water Fund capitalization grant be made available for 
projects that include these green infrastructure water or 
energy-efficient improvements or other environmentally 
innovative projects.
    Again, when the communities back home don't have the 
dollars to comply right now, what do I tell them when they call 
me saying, How are we going to comply with the mandates?
    Ms. Jackson. Well, the State Revolving Funds are meant to 
supplement communities, especially small communities. We work 
very hard with rural communities, the rural associations, as 
well to put money to try to help communities comply. But 
obviously the vast majority of systems are paid for by fees. So 
this money which goes out in low-interest loans for large 
systems can be grant forgiveness. I admit that there is a huge 
need out there. But we can only invest what we can in tight 
budget times.
    Mr. Latta. Could you define for me what are spurring more 
efficient systemwide planning as a goal of providing 5 percent 
of the water infrastructure spending and spurring more 
efficient systemwide planning?
    Ms. Jackson. Well, I think in many cases you have 
opportunities, I just know this from my State experience, to 
look at regional opportunities where you might have a municipal 
system, rural systems nearby that might be able to hook in so 
that you don't have to make the same expenditures. The money is 
intended to try to get communities to look at the most cost-
effective way to deliver clean water and wastewater services, 
recognizing the Federal Government simply cannot pay the whole 
tab, and not even the majority of it.
    Mr. Latta. The way you described it right there, when I 
think about my area and a lot of the districts out there, we 
have a problem, of course, that we are very, very rural in a 
lot of areas and there is absolutely no way one community can 
say, Well, we are going to work with another community because 
it would be just too expensive to try to get one to have ``a'' 
system for that area.
    I guess when you are looking at using 5 percent of those 
dollars for that, wouldn't that be, in some cases, more 
beneficial to be using those dollars to help these communities 
that don't have the money? I had a courthouse conference 
recently in one of my counties. I had the mayor there. I can't 
tell you how many citizens. They are all talking about the same 
thing; they cannot afford this. It is going to drive everybody 
out that can get out, if they can sell their homes now, because 
the cost is going to be so great on the water and the sewer 
site. But I am very, very concerned about these communities not 
being able to meet these goals that the EPA has mandated on 
them.
    Ms. Jackson. Sir, the standards for drinking water are 
Federal standards that are intended to protect health. My 
belief is every community should have clean water. But I also 
recognize that some communities are financially strapped. So it 
is incumbent upon us, not just as EPA but as a government, to 
try to help those communities. But not to say--not tell them 
what the standards are either for drinking water or discharge 
of raw sewage. Those things impact our water quality.
    Mr. Latta. I yield back.
    Mr. Murphy. The gentleman's time has expired.
    The chair recognizes the gentleman from New Jersey, Mr. 
Pallone.
    Mr. Pallone. Thank you, Mr. Chairman. It is good to see 
Lisa Jackson here this morning. I have known her from her days 
as the Commissioner of the New Jersey DEP, and I am proud to 
have her at the helm of the U.S. EPA.
    I know we are here this morning to discuss the fiscal year 
2012 proposed budget, but I wanted to put the issue in a 
broader context. EPA has a very simple but important mission to 
protect human health and the environment. As Administrator 
Jackson noted in her testimony, without adequate funding EPA 
would be unable to implement or enforce the laws that protect 
America's health.
    When crafting this budget, President Obama had to make 
tough choices. But the proposed EPA budget will provide EPA 
with the funding it needs to meet its core mission. The same 
cannot be said, unfortunately, about the draconian cuts 
included in H.R. 1, the continuing resolution crafted by the 
Republicans. I wish I had time to go through all the misguided 
budget cuts and anti-environmental riders, but I only have 5 
minutes.
    So I wanted to cite two examples. First, with regard to a 
rider on the issue of mountaintop mining, H.R. 1 contains a 
provision that would block EPA's oversight of mountaintop 
removal mining. In January, EPA took the rare action of vetoing 
the Clean Water Act permit application for Spruce Mine number 
one. I sent a letter to the administrator late last year, 
signed by 50 of my colleagues supporting her efforts to curtail 
mountaintop removal mining under the Clean Water Act. 
Mountaintop removal mining is a dangerous practice that is 
harmful to our environment and unsafe for those living in 
nearby communities. And EPA must have the tool to regulate this 
practice. But essentially H.R. 1 would take it away.
    Now, let me talk about brownfields. H.R. 1 also cuts $30 
million from EPA's brownfields program. Over the years, EPA has 
invested approximately $1.5 billion in brownfields site 
assessment and cleanup, leveraging 12.9 billion in cleanup and 
redevelopment dollars, a return on public investment of 8.5 to 
1.
    EPA's brownfields program has resulted in the assessments 
of more than 14,000 properties, helped to create more than 
60,000 new jobs. These numbers only tell part of the story, as 
communities across the country report that brownfields projects 
are often linchpins to spurring larger revitalization efforts, 
increasing local tax revenue, and bringing new vitality to 
struggling neighborhoods and communities.
    My colleagues on this panel know that the brownfields 
program was created with bipartisan legislation, myself and 
Representative Gilmore, signed into law by President George W. 
Bush. So I was rather shocked to see the cuts in this program 
in the continuing resolution. H.R. 1 cuts the budget for EPA's 
brownfields revitalization grant program by $30 million 
relative to the fiscal year 2010 enacted budget, and by 68 
million relative to the President's fiscal year 2011 request.
    I wanted to ask two questions of Ms. Jackson 
aboutbrownfields. First, if you would, what would the cuts in 
the CR mean for cleanup and redevelopment under the brownfields 
program? And then, what would those cuts mean for private 
investment in redeveloping these sites?
    Ms. Jackson. The CR has, I think, a 30 percent cut in the 
brownfields funding for fiscal year 2011. We haven't done an 
impact on sites specifically, but I will simply say that 
studies have shown that up to 20-to-1 is the leverage of 
private money to public money. So for every dollar spent of 
brownfields grant funding, usually by a local community, they 
can leverage that to investments as high as--not always as high 
as 20-to-1, but as high as 20-to-1.
    Mr. Pallone. The thing that bothers me is what we should be 
doing with the Federal dollars is trying to create jobs. I know 
this isn't for you to comment on, but it disturbs me because 
whether I go to the Health Subcommittee or I go to the 
Environment Subcommittee or the Energy Subcommittee, I just 
don't see any effort on the part of the Republicans here or on 
the floor to create jobs. And we have a very good program here 
which really was--I am not going to say it was a Republican 
program, but it was touted by President Bush in the beginning 
of his term. He thought it was a very good environmental 
program because of the fact that it brought money back to 
communities and invested and leveraged the private dollars to 
create jobs, create new businesses. And I just cannot see any 
justification for slashing funding for brownfields and other 
programs that create private sector jobs in this economic 
climate.
    It is cuts like this that lead many economists to say that 
the Republican CR would simply destroy hundreds of thousands of 
jobs. And this is a perfect example of it. I think it is wrong. 
And I think that there are many other situations like this. 
Brownfields is only one example.
    Thank you, Mr. Chairman.
    Mr. Murphy. The gentleman yields back.
    The chair recognizes the gentleman from New Hampshire, Mr. 
Bass.
    Mr. Bass. Thank you. I want to thank you, Administrator 
Jackson, for your testimony here this morning.
    As you know--as you may know, I represent the Second 
District of New Hampshire. It is a district in thenortheastern 
State where biomass is a vital part of our clean renewable 
energy strategy, both as a fuel for the generation of 
electricity from biomass as well as an alternative heating 
fuel. We are 86 percent dependent on heating oil in Maine and 
New Hampshire and, I would assume, also Vermont. We use it to 
heat houses, businesses, and so forth.
    I want to express my appreciation for your flexibility in 
delaying the consideration of how biomass CO<INF>2</INF> 
emissions will be regulated under the Clean Air Act through 
your December announcement regarding the so-called tailoring 
rule.
    Secondly, I also want to express my appreciation in your 
recent release of the boiler MACT rule, which allows for far 
greater flexibility and more realistic and economically 
achievable regulation in meeting emissions targets, especially 
the part that raises the exemption of smaller boilers up to 10 
million--I think it is 10 million BTUs.
    Getting back to the tailoring rule, I believe also in that 
December announcement--yes, the December announcement, you 
discussed that in July, the Agency would be rolling out their 
rules or proposed rules include involving the long--what I 
would consider the long held and internationally recognized 
presumption that biomass is a carbon neutral energy source. And 
I am just wondering if you could share with me any observations 
that you have concerning what that announcement may be and what 
base assumptions the EPA will be making, if any, involving the 
carbon neutrality of biomass.
    Ms. Jackson. Thank you, Mr. Bass.
    Well, we are committed to the 3-year study we believe there 
will be very likely be biomass sources that carbon neutral, 
there may well be some that are carbon positive, if you will. 
They actually are sources that are greenhouse gas positive in, 
terms of the sequestration of carbon and sort of the anyway 
affect that if you just left that biomass there, it would still 
release carbon as it decayed. The July rulemaking we remain 
committed to, it will almost certainly move to ensure that 
biomass sources to not fall subject to greenhouse gas 
regulation while we complete that study.
    Mr. Bass. Biomass resources don't fall, what do you mean by 
that?
    Ms. Jackson. Don't become subject to regulation.
    Mr. Bass. Oh, in other words, what you are saying is the 
assumptions are likely to presume that sustainably harvested 
biomass resources will be likely to be considered biomass 
neutral--I mean, carbon neutral.
    Ms. Jackson. It will defer, for 3 years to allow to us to 
complete the study. But what we wanted to ensure didn't happen 
is that biomass sources not become regulated while we have time 
to get the science to make further determinations. So it is 
intended to be a deferral, so biomass sources will not be 
regulated come July.
    Mr. Bass. But at this time, you are not in a position to 
talk about assumptions brought to that study involving the 3-
year deferral if you will?
    Ms. Jackson. No, I can say, Mr. Bass, that we would not 
have gone so far as to propose a deferral to invest in the 
study had we not agreed that some sources are most certainly 
going to turn out to be carbon neutral, and that there may be 
some sources that are of concern, but we believe there is a 
good chance that many sources are not at all a concern.
    Mr. Bass. I would appreciate the opportunity to continue to 
communicate with you on this and to assure--my interest is 
obviously to assure in a State where there is no gas, no coal, 
no oil, we have a little sunlight in the summer and quite a lot 
of wind, we need to make sure that in America, our biomass 
resources are, to the extent it is at all possible and 
appropriate, that they are considered carbon neutral and a 
renewable energy resource. And I thank four your attention to 
that. I yield back.
    Mr. Murphy. The gentleman yields back. The chair recognizes 
Mr. Cassidy of Louisiana.
    Mr. Cassidy. Hello fellow Louisianian.
    Ms. Jackson. Hello, Mr. Cassidy.
    Mr. Cassidy. Nice to have you here. And thank you for being 
so patient with us. Because we are both from Louisiana, you 
will be familiar with this,
    Region 6, Chairman Barton brought up in the past. 
Louisiana, Baton Rouge, has been under a nonattainment order 
for maybe 3 to 5 years, even though we achieved attainment 3 
years ago.
    Now, I have here that we have been in the 8-hour ozone 
standard for over 3 years, and this has been communicated to 
region 6, that apparently two of the five criteria to be 
designated attainment area have been fulfilled, but that we 
can't get a decision on the other three.
    Now these were submitted in 5/9/05, 12/20/05 all the way up 
until last year. It apparently is region 6, because I have 
documentation here that the other regions are processing these 
sorts of requests to transition from nonattainment to 
attainment in half the time or less. Most recently, we were 
told that our decision published in the Federal Register on 
February the 25th. And all that was published was that there 
will be another VISSA, public comment period. It is sort of 
like Waiting for Godot, it never happens.
    In the meantime, of course, Mr. Pallone, my colleague, was 
concerned about jobs. We have industry which cannot expand 
because we are nonattainment, that is what I am told. That 
projects that could convert to cheaper feed stock are not 
taking place. Products to produce new grades of products at the 
request of customers on short deadlines are not happening. 
Products to increase production on a unit by small amount with 
minimal process changes are not happening the jobs that are 
going with them.
    Now frankly, when you say that you need more money because 
otherwise there will be a delay on the permit, I have to say 
based on our experience in region 6, it doesn't matter how much 
money you have, clearly error bummed up your funding 
tremendously, because we still are not getting our stuff 
processed and there has been a cost in jobs. Now I guess it is 
a twofold question, what is happening in region 6? Why are we 
always being told, wait a little longer and it never happens?
    And secondly, that is what gives your agency a bad name. 
People do their best to fulfill the regulations and it just 
never happens. So your comments.
    Ms. Jackson. I can't comment specifically on the SIP, 
although I am happy to look into it and make sure our staff 
follow up from my office.
    Mr. Cassidy. If you would, please. We will give you a copy 
of the letter and by unanimous consent, I will submit a copy 
for the record.
    Secondly--oh my gosh, you and I are so concerned about the 
oil spill. When I look through your budget bill, I recall one 
of the issues is that EPA had not allowed there to be a test 
spill in the past, that had done that off the coast of Norway 
taking, I think, 500 barrels down to 500 feet, released it and 
saw what happened. And so when the spill happened in the Gulf 
of Mexico we were ill prepared. And obviously although we had 
approved dispersants, we had no real-time study of the affect 
of such. I don't see in your budget any research as regard that 
now. Is that in there and I just didn't see it?
    Ms. Jackson. I believe we have $2 million for research on 
dispersants that we achieved through another piece of 
legislation, so we don't have--for this year--we are spending 
it this year.
    Mr. Cassidy. Next. The Gulf of Mexico you mentioned that in 
your budget as one of the areas that you have concern, and 
laudably there is increased funding for the Mississippi River 
Basin, but there is like tremendous cuts for the Gulf of 
Mexico. So I see you are on a Presidential Commission to 
address the environmental issues. Lake Ponchartrain is losing 
500 million, Gulf of Mexico is, I think, losing 1.5 billion. If 
you assume people's priorities of where they put their money, 
it doesn't seem like a heck of a lot of priority--do you see 
what I am saying?
    Ms. Jackson. I certainly understand. And having grown up in 
the shadow of Lake Ponchartrain, a beautiful water body made 
incredible progress in cleaning itself up. The Commission and 
the Foundation have done a wonderful job. We certainly continue 
to support them. Our work on the Gulf Coast task force with the 
President, we just had a meeting in New Orleans to talk about 
clean up opportunities.
    Mr. Cassidy. Now with all the money that is obviously in 
the Gulf Coast region from penalties, from Clean Water Act 
penalties, et cetera, would you support channeling, since there 
is a cutback in the Federal support, and since the Gulf of 
Mexico is obviously hit, would you support directing that money 
toward the States most affected by the oil spill?
    Ms. Jackson. The President has said he supports a 
significant amount of the penalties from the BP oil spill being 
returned back to the Gulf Coast region.
    Mr. Cassidy. Thank you, Ms. Administrator. I yield back.
    Mr. Murphy. The chairman now yields back. The chair now 
recognizes the gentleman from California, Mr. Bilbray, for 5 
minutes.
    Mr. Bilbray. Thank you, Mr. Chairman. Let me say as 
somebody who married a young lady from New Orleans a block 
uptown from Domilises's.
    Ms. Jackson. Ah, nice.
    Mr. Bilbray. Spent a lot of time over there with the Zephyr 
back when it was still operating. Let me suggest one thing when 
you talk about the issue that one wanted to risk putting oil in 
the environment and thus doing testing on it. The Gulf of 
Guinea has plenty of places that we could test and we talked 
about that before. You had more oil spills happening in one 
area than all the rest of the world combined. And it should be 
a great opportunity for international--and I know in the 
science community, we raise this issue. You don't have to do it 
there, why don't you go over and work with the international 
effort.
    What is the cost for greenhouse gas management, or 
greenhouse gas reduction, in this year's proposed budget?
    Ms. Jackson. The President's proposed budget, I believe, 
has $202 million. I will confirm that amount for climate change 
altogether.
    Mr. Bilbray. Now, are you planning on in the next 10 years 
basically that being a flat level or are you talking about 
increasing?
    Ms. Jackson. We haven't--I don't think the President budget 
speaks to a 10-year forecast for that figure, sir.
    Mr. Bilbray. But you can pretty well predict that at least 
that would be maintained over the next decade?
    Ms. Jackson. No, I can't say that, sir.
    Mr. Bilbray. OK. Then let me ask you this: What is the 
percentage of reduction that you are projecting with this 200 
investment?
    Ms. Jackson. Well, I do believe that we will need to invest 
in greenhouse gas science, research, permitting. Some of that 
money is for States for permitting issues as well.
    Mr. Bilbray. What is your--what I am asking is, if you 
implement this, what is the reduction that you are planning on 
getting within the decade on with the strategies at this cost 
annually?
    Ms. Jackson. I see. In greenhouse gas emissions, you mean?
    Mr. Bilbray. Yes.
    Ms. Jackson. I am sorry, I thought you meant budget. I 
apologize. We estimate that we can make moderate reductions in 
greenhouse gas, but primarily we can't estimate----
    Mr. Bilbray. What moderate--what is your term ``moderate''?
    Ms. Jackson. I can't estimate it, sir, because----
    Mr. Bilbray. 10, 15, a 2?
    Ms. Jackson. The rulemaking has yet to be proposed, sir. It 
is not going to come out until July. The only rulemaking for 
greenhouse----
    Mr. Bilbray. I know when we promulgate a rule, there is a 
target. And the whole rule is designed for hitting certain 
targets. That is one of the great breakthroughs of the Clean 
Air Act is it was outcome-based. Are you saying that we do not 
have a projected reduction within the decade with the plan that 
has been proposed by EPA?
    Ms. Jackson. Only because the rules have yet to be 
proposed. We finalized rules for cars, that is a million tons 
of greenhouse gas pollution----
    Mr. Bilbray. But the low-lying fruit is the stationary 
sources, but you don't have a projection right now? Will it be, 
can you give me any idea at all, 5 percent, 10 percent, 20 
percent?
    Ms. Jackson. We are in the middle of listening sessions 
around the country on the rules that we would propose.
    Mr. Bilbray. Madam Administrator, I really have a problem 
with--you are giving us a price tag, but you are not even 
willing to give us a target of the benefit of the price tag.
    Ms. Jackson. Business would not like me to sit here and 
tell them the outcome of the rule----
    Mr. Bilbray. I am not asking about business. I am asking 
about what we are going to give the American people for what is 
being projected. This is just the government expense. But you 
cannot tell me that what you are proposing to spend, you can't 
tell me even a ballpark figure of what the reductions are going 
to be, where the benefit is. Because let me tell you something, 
when we do ozone reduction, we go after toxic missions, when we 
go after dioxin, we basically project here is the cost, here is 
the benefit--the reduction, and here is the benefit in health. 
You are telling me with this strategy we don't even have a 
ballpark figure?
    Ms. Jackson. No, no, no. I am telling you that as we 
develop the rules, we will be happy to put out what the 
ballpark figures and what the costs are----
    Mr. Bilbray. In other words, give you the money first, and 
then you will tell us what the--pay the price and tell us what 
the product's going to be.
    Ms. Jackson. No, no, no, sir. The money goes among other 
things to helping us develop those rules, to have the listening 
sessions, to be able to make informed rule----
    Mr. Bilbray. I have a real problem with that. Let me just 
tell you something, I don't think that at the ARB, staff would 
ever be given a budget at least if there wasn't a projection of 
the problem, the answer and what the benefit was.
    Let me quickly say one thing. You brought up an issue 
about--do you believe that secondary sewage mandate should be 
universally applied in this country?
    Ms. Jackson. Secondary treatment for----
    Mr. Bilbray. Yes, the activated slugs, secondary mandate 
under the Clean Water Act.
    Ms. Jackson. I believe that we are required under the Clean 
Water Act to do sec----
    Mr. Bilbray. Are you required to mandate it even if science 
tells you otherwise?
    Ms. Jackson. The regulations currently in effect mandate 
it, I suppose if science tells us otherwise----
    Mr. Bilbray. I just want to say I want to put a plug in, 
California has the National Academy of Science and the Scripps 
Institution of Oceanography, that has said not only the 
implementation of the Clean Water Act secondary mandate at the 
San Diego outfall will not only not benefit, will be adversely 
impacted.
    And that finding was so clear that EPA and the County of 
San Diego's Health Department sued EPA--the Sierra Club, and 
the local Health Department sued EPA to stop a mandate that is, 
in theory, good, but the ability--let me just tell you, 20 
years later, we are still going through that. And my question 
is this: If science tells you not to implement a reg, does that 
have the same weight and science telling you you should 
implement a reg.
    Ms. Jackson. Science is science, sir. We should follow 
science. I absolutely agree with that. I do know that there is 
still a problem with the San Diego outfall and water qualities.
    Mr. Bilbray. And what is the problem?
    Ms. Jackson. I do believe that there is still water quality 
concerns.
    Mr. Bilbray. Let me tell you what the water quality 
concerns are, as Mexico is being allowed to dump into our non 
point source, a Federally-owned flight control channel and that 
the major water quality problem in the area, it is a Federal 
responsibility.
    Mr. Shimkus [presiding]. The gentlemen's time expired. The 
chair now recognizes the gentleman from Colorado, Mr. Gardner, 
for 5 minutes.
    Mr. Gardner. Thank you, Mr. Chairman. And thank you, 
Administrator Jackson, for your time today.
    I wanted to follow up on a conversation that is disturbing 
to me because I am troubled by the misrepresentation you have 
made regarding statements made by our chairman and the 
misunderstanding of the legislation that is currently moving 
through this committee. We have argued before and accurately 
that the regulations that the EPA is currently proposing will 
drive gas prices up even further.
    The reports that I have seen on previous carbon 
legislation, carbon greenhouse gas legislation, show that gas 
prices in my district alone will increase by over 60 cents a 
gallon. That is as a result of greenhouse gas legislation. We 
know that your proposals will increase the price of fuel of 
gasoline. We have heard it from the refiners, we have heard it 
time and time again from witnesses in this committee.
    A major reason for this is because your proposed regulation 
will hit those refiners which convert oil to gasoline. If we 
drive up costs for refiners, we drive up costs to consumers. It 
is as simple as that. We can have a debate about whether the 
regulatory threat from your agency has already chilled 
investment, and I think it probably has. But no one can argue 
that impending regulations will not affect those refiners.
    I also would like to point out that your point you are 
comparing mixing apples to oranges in your comments about the 
effect of EPA regulations on those gas prices. The car rule 
that you mentioned for model years 2012 through 2016 has not 
increased gasoline prices. I agree they have not. No one said 
they did. That is why our legislation expressly and clearly 
preserves this rule and makes it the law. Like it or not, this 
rule is in place and we believe it is imperative to maintain 
certainty for auto manufacturers.
    Our legislative experts agree that the car rule is 
preserved in the bill. If you have a different legal opinion we 
can certainly discuss it, but let's not attack the individuals 
or question the integrity of individuals on this committee. 
Thank you.
    Ms. Jackson. Are you going to let me respond, Mr. Gardner?
    Mr. Gardner. I would like to have a couple of questions.
    Ms. Jackson. May I respond? May I respond?
    Mr. Gardner. I think you have made your position clear and 
again----
    Ms. Jackson. May I respond, please?
    Mr. Shimkus. The time is of the gentleman from Colorado, so 
the gentleman my proceed.
    Ms. Jackson. But it deserves----
    Mr. Shimkus. Madam Administrator, Madam Administrator, the 
time is a Member of Congress's, the gentleman from Colorado, 
and he may proceed on his time.
    Mr. Gardner. Thank you. Administrator Jackson, earlier in 
front of this committee, you testified that there are 
tremendous opportunities in rural America for the economy to 
continue to grow as it has thrived over the past several years. 
Further you said that rural America's economy has done fairly 
well as the rest of the country has seen the housing market and 
economy really do poorly.
    Seventeen mostly rural counties in my State of Colorado 
have seen the population decline according to the 2010 Census. 
With population decline comes economic decline, and my question 
is do you believe that rural America is in a position to absorb 
the costs associated with EPA's proposal to regulate greenhouse 
gases?
    Ms. Jackson. Sir, EPA's regulations on greenhouse gases 
have not impacted rural America to date. Any EPA regulations 
that come out will be----
    Mr. Gardner. They won't impact rural Colorado?
    Ms. Jackson. I didn't say there will be no impact, sir. 
There will be a cost analysis that will explain how those 
regulations might impact any American, including rural 
Colorado.
    Mr. Gardner. How much of your budget is currently set 
aside, you have about $219.5 million for climate change. How 
much of that is set aside for economic impact benefit--economic 
cost benefit analysis?
    Ms. Jackson. I am happy to get you details of how the 
budget deals with economic impact.
    Mr. Gardner. Going to the State Revolving Fund for Drinking 
Water a couple of years ago, the funding was tied to certain 
wage requirements that has increased the cost of local water 
projects. I was wondering if you knew whether or not the 
States--what total costs have increased by State water projects 
as a result of the language on wage requirements.
    Ms. Jackson. I don't have any estimate of that, sir.
    Mr. Gardner. Is there any way EPA would provide what it 
costs around the country in terms of increase costs to local 
water projects.
    Ms. Jackson. I don't know if we have it. If we have it, I 
am happy to have the data. But I can't do that study if I don't 
have it.
    Mr. Gardner. Any way you could ask the people who received 
funding through the State revolving fund of what their costs 
have increased as a result of that requirement?
    Ms. Jackson. I don't know if we have the authority to do an 
information request like that, but if we have the data, I am 
happy to get it.
    Mr. Gardner. In Colorado, we saw tremendous cost increases 
as a result of those requirements on the State revolving fund. 
Some increased by as much as 20 to 25 percent. And I would like 
see that information of what it costs around this country. And 
with that, Mr. Chairman, I yield back my time.
    Mr. Shimkus. The gentleman yields back his time. Seeing no 
other members the hearing is now adjourned.
    The chair reminds members they have 10 business days to 
submit questions for the record to the chairman. Your 
compliance is appreciated. Thank you, Madam Administrator.
    [Whereupon, at 12:23 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
